<html>
<title> - U.S. POLICY ON AFGHANISTAN</title>
<body><pre>[Senate Hearing 117-28]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-28
 
                      U.S. POLICY ON AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 27, 2021

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  Available via http://www.govinfo.gov               
                  
                  
                  
                         ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-974 PDF            WASHINGTON : 2021      
 
 
 
                  


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Menendez, Hon. Bob, U.S. Senator From New Jersey.................     1

Risch, Hon. James, U.S. Senator From Idaho.......................     3
    Prepared Statement...........................................     4

Khalilzad, Hon. Zalmay, Special Representative for Afghanistan 
  Reconciliation, Department of State, Washington, DC............     5
    Prepared Statement...........................................     8

              Additional Material Submitted for the Record

Responses of Ambassador Zalmay Khalilzad to Questions Submitted 
  by 
  Senator Ben Cardin.............................................    36

Responses of Ambassador Zalmay Khalilzad to Questions Submitted 
  by 
  Senator Brian Schatz...........................................    36

Joint Statement From the Afghan Parliament's Standing Commission 
  for Human Rights, Civil Society, and Women's Affairs, and the 
  Parliamentary Caucus on Women's Role in the Peace Process, 
  Dated April 19, 2021...........................................    38

Statement Submitted by Senator Jeanne Shaheen, Regarding: The 
  Posthumous Awarding of the State Department's International 
  Women of Courage Award to Seven Afghan Women...................    40

National Intelligence Council Report on Afghanistan: Women's 
  Economic, 
  Political, Social Status Driven by Cultural Norms, Dated April 
  2, 2021........................................................    41

                                 (iii)

  


                       U.S. POLICY ON AFGHANISTAN

                              ----------                              


                         TUESDAY, APRIL 27, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SDG-50, Dirksen Senate Office Building, Hon. Bob Menendez, 
chairman of the committee, presiding.
    Present: Senators Menendez [presiding], Cardin, Shaheen, 
Coons, Murphy, Kaine, Booker, Schatz, Van Hollen, Risch, 
Romney, Portman, Young, and Hagerty.

            OPENING STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Ambassador Khalilzad, thank you for joining us today. Thank 
you for your service to our country, and we appreciate your 
being here today.
    The Biden administration has made its decision to draw down 
from Afghanistan by September 11th of this year, bringing to a 
close the U.S. military presence in the country. I believe that 
it is the responsibility of this committee to examine the 
implications of this decision for U.S. national security 
interests in the region and what it means for the people of 
Afghanistan. The issues confronting the future of U.S. policy 
in Afghanistan fall squarely in the jurisdiction of this 
committee, and I urge my colleagues to remain focused on 
Afghanistan, especially after the last U.S. service member 
leaves.
    The departure of U.S. troops does not mean the end of U.S. 
engagement. In fact, it may require even more attention from 
the State Department, aid workers, and U.S. policymakers. After 
the departure of the Soviets from Afghanistan, the 
international community largely moved on. Afghanistan fell into 
civil war in the years that followed, and al-Qaeda and other 
terror groups gained traction. Addressing these problems was 
not a priority for the United States and the result was 9/11. I 
urge us and the international community not to repeat the 
mistakes of the past. Fulsome engagement by the United States 
will be necessary in the years ahead to ensure that our 
interests are met.
    I appreciate the desire to get our troops out of 
Afghanistan. That is something that I support. But as I have 
said all along, how we withdraw and what political arrangement 
is left in our wake matters deeply. The messaging from the 
Administration since the announcement has been limited. Our 
troops are leaving at some point before September 11th. I got 
that, but what is the plan for the path forward?
    For me, there are two fundamental questions at play. First, 
can we effectively conduct counterterrorism operations without 
a presence inside Afghanistan? The power of terror groups has 
eroded significantly over the past 20 years, but the terrorism 
landscape is not static. How will we gather the intelligence 
necessary to keep these groups at bay? Second, do we have 
leverage to ensure that a power-sharing agreement in 
Afghanistan broadly reflects the will of all of the Afghan 
people, including women, youth, and minority groups? Our 
leverage seems quite limited, to me, at this point, but we must 
do everything we can to ensure that the Afghan Government is in 
the best position possible to succeed in these negotiations.
    Third, given the uncertain security situation in the 
country, I think we also need to consider contingency planning. 
If the Taliban were to come back to power, the reality for 
Afghanistan's women and girls, I think, would be devastating. 
In that regard, I want to submit for the record a joint 
statement from the Afghan parliament's Standing Commission for 
Human Rights, Civil Society, and Women's Affairs, and the 
Parliamentary Caucus on Women's Role in the Peace Process. The 
statement urges continued U.S. diplomatic and assistance 
support post the drawdown of troops, and I ask unanimous 
consent that this important statement from those women be 
included in the record of this hearing.
    Without objection, it is so included.
    [EDITOR'S NOTE.--The information referred to above can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]
    The Chairman. On top of the challenge of the reality for 
Afghanistan's women and girls, my question is, what is the 
Administration's plan to address that? Many Afghans who work 
for the U.S. will face pressure and attacks from the Taliban. 
Does the Administration have a robust Special Immigrant Visa 
and refugee asylum plan in place to rapidly process what I 
think may be thousands of Afghans who may need to leave the 
country?
    This committee has played a leading role in conducting 
oversight with respect to the Afghan peace process. I led a 
legislative effort to enhance congressional oversight of the 
peace process, a framework that is now law. The Biden 
administration has blown through a certification deadline and a 
reporting deadline established under the law. We don't write 
laws and expect that they will be ignored. The February 29th 
arrangement with the Taliban, however flawed, is still the only 
arrangement on record with this group. Its implementation 
should still matter, especially in relation to the Taliban's 
counterterrorism commitments. This missing certification and 
report are necessary for Congress to conduct oversight of this 
issue, and the Administration needs to deliver them 
immediately.
    As the Taliban plans its strategy with respect to 
negotiation with the Government, I want to be crystal clear. I 
don't believe under any circumstances that the United States 
Senate support--will support assistance for Afghanistan, 
especially under the World Bank's program which provides budget 
support, if the Taliban has taken a governing role that ends 
civil society advances and rolls back women's rights. I think 
the Congress of the United States, it is rather clear, controls 
the appropriations of assistance abroad, and I don't believe we 
will bend on this point. Moreover, I want to personally 
advocate for the U.N. and U.S., to maintain sanctions on the 
Taliban if women's rights are trampled under their leadership.
    The choice for the Taliban is clear. The only path to 
international legitimacy is through the democratic process and 
a peace deal that serves the interests of the Afghan people. My 
message to the Taliban is this. If you want to play a role in 
governance and avoid international pariah status, then 
seriously pursue a peace deal, participate in the democratic 
process, and treat women as equal members of society. This is 
the only way the world will see you as legitimate.
    In closing, these are very difficult issues and there are 
no good options, but now that the President has made his 
decision, we need to come together to focus on the implications 
and chart a path forward that is in our interests. I want the 
committee to be deeply engaged in that process, and I expect 
consistent and substantial consultation by the Administration 
at every step along the way.
    And with that, I recognize the ranking member, Senator 
Risch.

                STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you. Thank you, Mr. Chairman. First of 
all, like many others, I have deep concerns about the 
Administration's rush for the exits in Afghanistan. Most 
everyone agrees that we need to seek a reasonable end of the 
war there and that our troops should come home quick--as 
quickly as possible. However, a U.S. military drawdown should 
only occur in a way that safeguards our national security 
interests, preserves our hard-fought gains, and protects the 
homeland. I hope I am wrong, but I am concerned that the 
Administration's decision may result in a Taliban offensive 
that topples the Government. Indeed, it seems that most of the 
people who work in this space think that that is where this is 
headed. It would eliminate--that would eliminate any chance for 
a negotiated peace, place at risk the rights of Afghan women 
and minorities and produce staggering numbers of refugees, and 
result in a safe haven for terrorists who wish to attack 
America.
    Our departure from Afghanistan will not improve the 
conditions on the ground. The sobering reality is that the 
Afghanistan-Pakistan region remains a dangerous place. Despite 
some argument that the threat has diminished, there is a 
consensus that unless we continue to apply pressure to these 
terror networks operating there, we will see a threat against 
the United States in short order. Of the 72 U.S.-designated 
terrorist groups globally, 15 reside in the Afghanistan-
Pakistan region, and many of these groups have stated their 
intent to attack Americans in the United States. We cannot 
trust the Taliban with America's security. Worse, the incipient 
counterterrorism plan potentially depends on Afghanistan's 
neighbors, who have a long history of supporting and harboring 
the Taliban.
    The only responsible way forward is to retain an effective 
U.S. counterterrorism capability, insist on conditions-based 
reduction in troops, and demand the Taliban's compliance with a 
counterterrorism framework. In my discussions with military 
leaders, they have been clear that it is not easy to conduct 
counterterrorism from afar. We cannot commute to a fight 
without significantly increasing the risk to our forces. The 
distances are great. We lose important human intelligence 
networks, and we lack suitable basing agreements in neighboring 
countries. My fear is that Afghanistan will become a dangerous 
blind spot.
    In addition to counterterrorism concerns, an American 
departure puts Afghan women, minorities, and girls under 
serious threat of losing their hard-earned rights. Over the 
last 20 years, we have seen remarkable gains in human rights, 
reflected by a dramatic increase in the number of girls in 
school and women in positions of authority. The Taliban's view 
on these issues are clear as we saw during their rule in the 
90s and have seen with the assassinations of female journalists 
and medical workers in recent months. For our part, any 
congressional approval of further assistance to Afghanistan 
should and must depend on the shape of the Government there and 
its adherence to counterterrorism commitments and human rights.
    The Secretary of State recently announced an additional 
$300 million in assistance for Afghanistan. While these 
programs are rightly focused on civil society, anti-corruption, 
women's rights, and economic improvement, I have serious 
concerns about oversight--any oversight of these dollars. With 
the departure of U.S. troops and the potential for Afghanistan 
to descend into violence, providing oversight of our investment 
will be difficult at best. There is also the matter of 
safeguarding our embassy and diplomats. State tells us that 
planning is underway, and I look forward to those 
consultations. I remain very skeptical of our security on the 
ground.
    To our men and women in uniform, our diplomats, aid 
workers, and NATO allies, and other partners, you have borne an 
enormous weight since the attacks on September 11th, 2001. You 
have nobly served, and all of us owe you and your families an 
incredible debt of gratitude. Thank you, Mr. Chairman.
    [The prepared statement of Senator James Risch follows:]

               Prepared Statement of Senator James Risch

    Thank you, Mr. Chairman.
    First of all, like many others, I have deep concerns about the 
Administration's rush for the exits in Afghanistan.
    Most everyone agrees that we need to seek a responsible end to the 
war there, and that our troops should come home as quickly as possible. 
However, a U.S. military drawdown should only occur in a way that 
safeguards our national security interests, preserves our hard fought 
gains, and protects the homeland.
    I hope I'm wrong, but I'm concerned that the Administration's 
decision may result in a Taliban offensive that topples the Government. 
Indeed it seems that most of the people who work in this space think 
that that's where this is headed. That would eliminate any chance for a 
negotiated peace, places at risk the rights of Afghan women and 
minorities, produces staggering numbers of refugees, and results in a 
safe haven for terrorists who wish to attack America.
    Our departure from Afghanistan will not improve the conditions on 
the ground. The sobering reality is that the Afghanistan-Pakistan 
region remains a dangerous place. Despite some argument that the threat 
has diminished, there is a consensus that unless we continue to apply 
pressure to these terror networks operating there, we'll see a threat 
against the United States in short order.
    Of the 72 U.S.-designated terrorist groups globally, 15 reside in 
the Afghanistan-Pakistan region, and many of these groups have stated 
their intent to attack Americans in the United States.
    We can't trust the Taliban with America's security. Worse, the 
incipient counterterrorism plan potentially depends on Afghanistan's 
neighbors, who have a long history of supporting and harboring the 
Taliban. The only responsible way forward is to retain an effective 
U.S. counterterrorism capability, insist on a conditions-based 
reduction in troops, and demand the Taliban's compliance with a 
counterterrorism framework.
    In my discussions with military leaders, they've been clear that it 
is not easy to conduct counterterrorism from afar. We cannot commute to 
this fight without significantly increasing the risk to our forces. The 
distances are great, we lose important human intelligence networks, and 
we lack suitable basing agreements in neighboring countries. My fear is 
that Afghanistan will become a dangerous blind spot.
    In addition to counterterrorism concerns, an American departure 
puts Afghan women, minorities, and girls under serious threat of losing 
their hard-earned rights. Over the last 20 years, we have seen 
remarkable gains in human rights, reflected by a dramatic increase in 
the number of girls in school and women in positions of authority. The 
Taliban's views on these issues are clear--as we saw during their rule 
in the 90s and have seen with the assassinations of female journalists 
and medical workers in recent months.
    For our part, any Congressional approval of further assistance to 
Afghanistan should and must depend on the shape of the Government there 
and its adherence to counterterrorism commitments and human rights.
    The Secretary of State recently announced an additional $300 
million dollars in assistance for Afghanistan. While these programs are 
rightly focused on civil society, anti-corruption, women's rights, and 
economic improvement, I have serious concerns about oversight of these 
dollars. With the departure of U.S. troops and the potential for 
Afghanistan to descend into violence, providing oversight of our 
investment will be difficult at best.
    There is also the matter of safeguarding our embassy and diplomats. 
State tells us that planning is underway and I look forward to those 
consultations. I remain very skeptical of our security on the ground.
    To our men and women in uniform, our diplomats, aid workers, and 
NATO allies and other partners--you have borne an enormous weight since 
the attacks on September 11. You have nobly served, and all of us owe 
you and your families an incredible debt of gratitude.
    Thank you, Mr. Chairman.

    The Chairman. Thank you, Senator Risch. For the information 
of members, it is the chair's intention to work through these 
votes. We will rotate out in terms of making sure that we are 
on the floor to cast votes on these nominations. So I will turn 
to Ambassador Khalilzad for his testimony, then we will start a 
round of 5 minutes, and we will rotate through. Whoever has not 
voted, I would urge you to consider doing that now so when the 
time comes, you are free to cast your questions when--free to--
when your turn is up, I should say.
    With that, Ambassador, thank you very much again for being 
here, and we look forward to your comments.

     STATEMENT OF THE HONORABLE ZALMAY KHALILZAD, SPECIAL 
 REPRESENTATIVE FOR AFGHANISTAN RECONCILIATION, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Khalilzad. Thank you very much, Mr. Chairman, 
Ranking Member, and distinguished members of this committee. I 
am grateful to be here today to discuss America's strategy in 
Afghanistan.
    As you know, President Biden has announced his decision to 
begin the withdrawal of remaining U.S. forces from Afghanistan 
by May 1, and to conclude before September 11. This decision 
was reached after an extensive review and clear-eyed focused on 
facts on the ground. As the President laid out in his speech on 
April 14, he made the decision based on four judgments. First, 
our original objective in Afghanistan after 9/11 was to root 
out al-Qaeda there. That movement has been significantly 
degraded and its leader, Osama Bin Laden, brought to justice. 
Second, the world has changed since 2001. The terror threat, 
including from al-Qaeda, is now geographically dispersed in 
Africa, the Middle East, and Asia.
    We now face new urgent challenges. As the President has 
said, we must fight the battles for the next 20 years, not the 
last 20. Continuing with the policy of the past two decades in 
Afghanistan is no longer sensible. It would entail high ongoing 
costs without commensurate outcomes. The agreement in place 
provided for the U.S. and coalition forces to withdraw by May 1 
of this year, reason number four. To reverse course would have 
meant a return to war with the Taliban, a war that would have 
continued indefinitely. The same agreement opened the door to 
historic inter-Afghan negotiations. This, too, would have been 
undermined.
    To be clear, there is no option to continue the status quo. 
The President determined that it was not in our national 
interest to maintain U.S. troops in Afghanistan. In the coming 
months, we will withdraw our troops responsibly, deliberately, 
and safely in coordination with our NATO allies and operational 
partners. We have made it clear to the Taliban that if they 
attack us as we draw down, we will defend ourselves forcefully.
    We will reconfigure our counterterrorism capabilities to 
ensure our ability to monitor and address terrorism threats 
emanating from Afghanistan. We will maintain substantial assets 
in the region and will continue to work closely with Afghan 
security forces and regional partners. We will hold the Taliban 
accountable to their commitments to prevent al-Qaeda or any 
other terrorist group from using Afghanistan as a base for 
attacks against us. If a terrorist threat does emerge, we will 
be ready.
    Even as we withdraw our military forces, we will continue 
our diplomatic support for the peace process and urge all 
parties--Afghans and international stakeholders--to remain 
focused on securing a political settlement and a permanent 
ceasefire. It is time for all concerned to abandon the negative 
patterns of behavior that have complicated the pursuit of 
peace. For our part, the United States will support a 
continuing partnership with Afghanistan, and our allies and 
partners have indicated that they will do the same. With the 
support of Congress, our partnership with Afghanistan will 
entail the continuation of substantial civilian and security 
assistance.
    Our security assistance will primarily support sustainment 
and functionality of some 300,000 Afghan military and police 
personnel. They are a vital asset for their country and deserve 
our support. We intend to maintain our embassy and will 
continue to provide development assistance for more economic 
investment, and advocate to preserve the gains for minorities 
and for women, including their meaningful participation in the 
ongoing negotiations and their appropriate representation 
throughout society.
    This mission is important to me personally. I was fortunate 
to play a small role as ambassador to Afghanistan in the early 
2000s in encouraging the adoption of constitutional provisions 
that upheld the rights of women. More recently, I fought for 
the inclusion of women on the Islamic Republic's negotiating 
team. They have directly and effectively engaged the Taliban at 
the negotiating table, challenging Taliban stereotypes and 
demonstrating, by their presence and skill, the important 
social advances that have taken place in Afghanistan since 
2001. We are likewise pressing for women's inclusion in any 
future peace efforts.
    Secretary Blinken and I want you to know that I have 
repeatedly demanded the Taliban release of Mark Frerichs, and 
enlisted the support of senior Qatari and Pakistani officials 
on his behalf. As the Taliban seek to end their chapter of 
animosity with the United States, they must know to move 
forward, they cannot continue to hold an American hostage.
    Let me turn to the critical effort to reach a political 
settlement. It has been evident for years that there is no 
military solution to what is now a 4-year conflict in 
Afghanistan. We have been pursuing intensive diplomacy with 
both sides and with a wide array of non-Afghan stakeholders to 
accelerate talks. We have shared proposals to help catalyze and 
advance the process. Leaders from across the political spectrum 
in Afghanistan have come together to formulate suggestions in 
response to our proposals and in preparations for the next 
phase of the peace process. This is a sign that the process is 
working.
    We welcome the decision by the United Nations to play an 
enhanced role. Together with Qatar and the United Nations, 
Turkey is ready to host a high-level meeting between the 
Islamic Republic and the Taliban in Istanbul. The opportunities 
are in place that international will to assist is robust, and 
it is now up to Afghan Islamic Republic leaders and the Taliban 
to seize the moment.
    This committee well understands the special role of 
Pakistan. We have urged Pakistan's leaders to exercise their 
considerable leverage over the Taliban to reduce violence and 
support a negotiated settlement. Pakistan has publicly stated 
that they do not support a military takeover by the Taliban. I 
believe they understand that their country, too, will face 
grave consequences in the event of a return to a wider civil 
war. They have expressed support for a peace process in 
Afghanistan.
    In my discussion with the Taliban, I have painted the 
choice between two very different futures for them. They can 
embrace a negotiated path to peace, make the transition from a 
violent insurgency to a political movement, and join their 
fellow Afghans in a nation that enjoys respect in the global 
community. But if they obstruct a negotiated settlement and 
instead pursue a military takeover, they will be opposed not 
only by the Afghan Republic, but by the United States and our 
allies and partners in the region. They will face isolation, 
regional opposition, sanctions, and international opprobrium. 
There is remarkable consensus within the region and the 
international community against a military takeover by the 
Taliban.
    Mr. Chairman, Ranking Member, thank you for this 
opportunity to update you. I want to state in closing that the 
United States investment in Afghanistan over the past two 
decades, made possible by you and your constituencies, has been 
enormous and honorable. We have given blood and treasure to the 
efforts to stabilize and develop a society far from our own, 
not just because terrorists planned 9/11 there, but because we, 
as a nation, also cared about the plight of millions of Afghan 
women and girls, about the fledging civil society that has 
grown powerful and independent, and about peace for millions of 
families there in cities and villages we now know well.
    Afghanistan has been transformed. We want our investments 
and sacrifices to have been worthwhile, and if we navigate the 
coming months appropriately, I believe that this can be--this 
can happen. In the end, however, it will be up to the Afghans 
to seize their opportunities. Our troop deserve to come home, 
and Afghanistan deserves a chance to find its own way forward 
with help and encouragement from its friends, led by the United 
States.
    Thank you again, and I look forward to your questions.
    [The prepared statement of Ambassador Zalmay Khalilzad 
follows:]

           Prepared Statement of Ambassador Zalmay Khalilzad

    Thank you, Mr. Chairman, Ranking Member, and distinguished members 
of the Committee. I am grateful to be here today to discuss America's 
strategy in Afghanistan. As you know, President Biden has announced his 
decision to begin the withdrawal of remaining U.S. forces from 
Afghanistan by May 1 and to conclude before September 11. This decision 
was reached after an extensive review of the United States' mission in 
that country over the past 20 years, of the facts on the ground there 
currently, of the options available to us now and their likely 
consequences, and of the global situation and challenges our country 
needs to address with regard to both state and non-state actors.
    As the President laid out in his speech on April 14, he made the 
decision based on four judgments:

  1.  Our original objective in Afghanistan after 9/11 was to root out 
        al Qaeda there. That movement has been significantly degraded 
        and its infamous leader Osama bin Laden brought to justice.

  2.  The world has changed since 2001. The terror threat, including 
        from al Qaeda, is geographically dispersed, in Africa, the 
        Middle East, and Asia. Moreover, we have urgent challenges in 
        front of us: an increasingly assertive China, defeating the 
        pandemic, and strengthening alliances to confront cyber threats 
        and manage emerging technologies. We must fight the battles for 
        the next 20 years, not the last 20.

  3.  Continuing with the policy of the past two decades in Afghanistan 
        is no longer sensible. It would entail high ongoing costs 
        without commensurate outcomes.

  4.  An agreement was already in place providing the U.S. and 
        coalition forces would withdraw by May 1 of this year. To 
        reverse course would have meant an inexorable return to war 
        with the Taliban--a war that would have continued indefinitely.

    To be clear, there was no option to continue the status quo. The 
President determined that it was not in our national interest to 
maintain U.S. troops in Afghanistan.
    In the coming months we will withdraw our troops responsibly, 
deliberately, and safely, in coordination with our NATO allies and 
operational partners. We have made clear to the Taliban that if they 
attack us as we draw down, we will defend ourselves forcefully.
    We will reconfigure our counterterrorism capabilities to ensure our 
ability to monitor and address terrorism threats emanating from 
Afghanistan. We will maintain substantial assets in the region and will 
continue to work closely with our Afghan security force and regional 
partners. We will hold the Taliban accountable to their commitments to 
prevent al Qaeda or any terrorist group from using Afghanistan as a 
base for attacks against us. If a terrorist threat does emerge, we will 
be ready.
    Even as we withdraw our military forces, we will continue our 
diplomatic support for the peace process, and urge all parties 
concerned to remain strongly focused on encouraging and helping the 
Afghans secure a peace dividend while avoiding some of the negative 
patterns of recent past.
    Afghan themselves--leaders and influential personages on all 
sides--must know that as responsible national figures, they should 
craft a joint way forward instead of jockeying for individual or group 
power. It is incumbent on all leaders in Afghanistan--those who've had 
the privilege to be educated, the business-minded, the young people who 
make up over 60 percent of the population, the farmers--all need to 
focus on rebuilding a stable post-war economy. And the region and the 
world need to stay engaged with advice and assistance.
    For our part, the United States will support a continuing 
partnership with Afghanistan, and our allies and partners have 
indicated that they will do the same. With the support of Congress, our 
partnership with Afghanistan will entail the continuation of 
substantial civilian assistance and security assistance through the 
Afghan Security Forces Fund. This primarily supports sustainment of 
combat operations and related functions by 300,000 Afghan military and 
police personnel: they are a vital asset for their country and worth 
our investment.
    We intend to maintain our embassy and will continue to provide 
development assistance, promote economic investment, and advocate to 
preserve the gains for minorities and for women, including their 
meaningful participation in the ongoing negotiations and their 
appropriate representation throughout society. This mission is 
important to me personally. I was fortunate to play a small role, as 
Ambassador to Afghanistan in the early 2000s, in encouraging the 
adoption of constitutional provisions that upheld the rights of women. 
More recently, I fought for the inclusion of women on the Islamic 
Republic's negotiating team; they have directly and effectively engaged 
the Taliban at the negotiating table, challenging Taliban stereotypes 
and demonstrating by their presence and skill the important social 
advances that have taken place in Afghanistan since 2001. We are 
likewise pressing for women's inclusion in any future peace efforts.
    It is important to me and to the Secretary that you know that I 
have repeatedly demanded the release of Mark Frerichs, who has been 
held by the Taliban since February 2020. I have also enlisted the 
support of senior Qatari and Pakistani officials on his behalf. As the 
Taliban seek to end this chapter of animosity with the United States, 
they must know they will not have it as long as they hold an American 
hostage.
    We will renew our commitment to a results-focused peace process 
between the Islamic Republic of Afghanistan and the Taliban. It has 
been evident now for years that there is no military solution to a 
conflict in Afghanistan that has now gone on for over 40 years. A 
negotiated settlement within the country itself, supported by the 
regional powers, is the only path to sustainable stability.
    We have been pursuing intensive diplomacy with both sides and with 
a wide array of additional stakeholders to encourage the sides to 
accelerate the peace process and make progress toward a political 
settlement and permanent and comprehensive ceasefire. We have shared 
proposals on how to achieve a peace settlement, in order to help 
catalyze and advance the process, and these have generated useful 
discussions. Leaders from across the political spectrum in Afghanistan 
have come together to formulate suggestions in response to these 
proposals and in preparation for the next phase of the peace process. 
This is a sign that the process is working.
    The United Nations has agreed to play an enhanced role in 
supporting the peace process, leveraging their expertise on ceasefires, 
process design, and constitutional reform. We view the U.N.'s 
continuing role as central to the Afghan peace process. Together with 
Qatar and the U.N., Turkey is ready to host a high-level dialogue 
between the Islamic Republic and the Taliban in Istanbul. The 
opportunities are in place, the international will to assist is robust, 
and it is now up to Afghan Government leaders and the Taliban to seize 
the moment.
    As this Committee well understands, Pakistan has a special role to 
play in supporting peace, and senior U.S. officials and I have been in 
close touch with Pakistan's leaders over the past several weeks. We 
have urged Pakistan's leaders to exercise their considerable leverage 
over the Taliban to reduce violence and support a negotiated 
settlement. Pakistan's leaders have emphasized publicly and to U.S. 
officials that they do not support a military takeover by the Taliban. 
I believe they understand that not only Afghanistan, but their country 
too will face grave consequences in the event of a return to a wider 
civil war.
    The Taliban must recognize that they have a choice between two very 
different futures: They can embrace a negotiated path to peace, make 
the transition from a violent insurgency to a political movement, and 
join their fellow Afghans in a nation that enjoys respect in the global 
community. But if they obstruct a negotiated settlement and instead 
pursue a military takeover, they will be opposed not only by the United 
States but by our allies, partners, and the region. They will face 
isolation, regional opposition, sanctions, and international 
opprobrium. There is remarkable consensus within the region and the 
international community against a military takeover by the Taliban.
    Let me reiterate that even as we withdraw our forces in the coming 
months, the United States will remain a steadfast partner of 
Afghanistan. Our vision is for peace, development and regional 
connectivity, trade and cooperation. We will continue to provide 
support as Afghans defend their country, and we will maintain our 
efforts to support a negotiated settlement and a comprehensive 
ceasefire.
    Thank you for this opportunity to update you. You have my 
assurances I will do all I can to maximize the prospects for peace in 
Afghanistan. I want to state in closing that what the United States, 
what you and your constituencies have done for Afghanistan over the 
past two decades, has been enormous and honorable. Our men and women in 
uniform have sacrificed their lives, and thousands now live with 
permanent physical and other disabilities as a result of their service. 
We have given hundreds of billions to this effort to stabilize and 
develop a society far from our own, not just because terrorists planned 
9/11 there, but also because we cared about the plight of millions of 
women and girls, about a fledgling civil society that has grown 
powerful and independent, and about peace for millions of other 
families there, in cities and villages we now know well. We want our 
investments and sacrifices to have been worthwhile, and if we navigate 
the coming months appropriately, I believe that this can happen. In the 
end, however, it will be up to the Afghans to seize their 
opportunities. Our troops deserve to come home, and Afghanistan 
deserves a chance to find its way forward, with help and encouragement 
from its friends.
    Thank you again, and I look forward to your questions.

    The Chairman. Thank you, Ambassador. With that, we will 
start a round of 5-minute questions.
    What do you think the Taliban has been fighting for over 
the course of the past 20 years? What is their goal?
    Ambassador Khalilzad. They have argued that they are 
fighting to get the international forces--the foreign forces 
out of their country, and that they regard those forces as 
occupation forces.
    The Chairman. Mm-hmm. Would you agree that their vision has 
been to establish an emirate that would return Afghanistan to 
the brand of governance seen before 9/11?
    Ambassador Khalilzad. That has been a stated vision, but 
they have--also have said that they have changed since the dark 
days when they ruled Afghanistan in the 1990s.
    The Chairman. With their desire to establish an emirate 
still their vision, if that is the case, what makes us think 
that giving them--that they will give up from their stated 
vision now that U.S. forces are leaving? Do you really think, 
for example, that the incentives of international legitimacy, 
lifting of sanctions, international assistance, will be all it 
takes for them to peacefully participate in the democratic 
process?
    Ambassador Khalilzad. I think those are factors they say 
are important, but more important is that they cannot have 
peace in the foreseeable future, and they will have a long war 
confronting them because their fellow Afghans, those that 
support the Republic, for example, do not support the 
restoration of an emirate or the emirate back in Afghanistan.
    The Chairman. No, I know their fellow Afghans don't, but 
they do, and, militarily, they seem to have already covered a 
good part of the country. I know that there is rising violence 
in Kabul, and we are far from a withdrawal. So I am trying to 
understand why they are suddenly going to change the dynamics 
of what their stated goal is when they will have less of a 
consequence to meet--a challenge to meet them as they try to 
pursue that goal. And so that is one of the challenges I have 
in trying to understand what we are doing here.
    The Department was required to provide a report on Taliban 
compliance with the February 29th agreement. In my view, they 
have already violated that agreement by maintaining ties to al-
Qaeda. This report was due on April the 1st. When will the 
Department submit this report?
    Ambassador Khalilzad. I understand what you are saying, Mr. 
Chairman. I think your staff and the Department are in 
discussions. I will take this message again back to them. I 
believe that work is underway to address your concern.
    The Chairman. I hope it is, Ambassador. You know, we do not 
write provisions of law to have them ignored. I held the 
previous Administration to the same standards as the ranking 
member. I would intend to hold this Administration to the same 
standards. The purpose of the information is to be able to be 
informed so that members can make decisions on what U.S. policy 
should be. So I wrote this provision of the NDAA to gain 
insight as Congress conducts oversight of the agreement, and I 
didn't write the provision with the expectation that the 
Administration would ignore it.
    I expect the Department to comply with the law, and I hope 
that you will work to make sure this compliance takes place 
from your role since obviously they will call upon you for the 
insights to make that report. So do I have your commitment to 
work to try to get it to us sooner rather than later?
    Ambassador Khalilzad. As I said, Senator, we understand the 
importance of what you have stated, and we are working with 
your team to respond very quickly.
    The Chairman. Well, let's put it this way. If I don't get 
the report, there will be no authorizations forthcoming from 
this committee.
    Ambassador Khalilzad. Understood.
    The Chairman. So we'll get the report. That's not the way I 
like to operate, but if that's--if we are going to be ignored, 
then there has to be a consequence. Do I have your commitment 
to brief this committee after the next round of negotiations 
between the Taliban and Afghan Government?
    Ambassador Khalilzad. I am always available, Senator. I 
have sought opportunities to be--to brief. When it has not 
happened, I have regretted that. Thank you, Mr. Chair.
    The Chairman. I will take that as your answer is yes.
    Ambassador Khalilzad. From my side, yes.
    The Chairman. Yes. Okay. I understand. Is the State 
Department going to significantly increase its Special 
Immigrant Visa slots for Afghans seeking to flee the country?
    Ambassador Khalilzad. We understand the importance of this 
issue. We are working on a plan, and we will work with Congress 
to respond to it. I am sure many Afghans with skills would like 
to stay in their country and help the country develop, but we 
understand our responsibilities in this regard and will consult 
with you. A plan is being developed.
    The Chairman. Well, I hope the Department has--this is the 
last point I will make, and I will turn to the ranking member--
I hope it has a very vigorous Special Immigrant Visa program. I 
hope that they will want to stay in their country as well and 
contribute to the nation's future. But we don't have a good 
history of taking care of those who sided with us in conflict 
and making sure that if they feel they cannot sustain 
themselves in their country or are unwilling to do so, that we 
take care of them. And that sends a global message: don't fight 
with the Americans because when they're finished, they leave 
you behind. That's not something we can tolerate.
    Senator Risch? Both Senator Risch and I need to vote. So 
have you voted, Jeanne, on this first----
    Senator Shaheen. Yes.
    The Chairman. You have? Okay. Okay. So I have in the order 
of who's here, Senator Kaine is next, then Senator Shaheen. So 
shall we go that----
    Senator Kaine. Mr. Chair, would you want to go to a 
Republican just to alternate since you----
    The Chairman. I can do that as well. I am sorry. So Senator 
Kaine, then--oh, no, I am sorry. Senator Romney--I forgot 
Senator Risch held for the moment--and then Senator Kaine, and 
I should be back by then, but if not, Senator Shaheen.
    Senator Romney. Ambassador, it is a wonderful thing to see 
you again, and I express my deep appreciation for the effort 
you have made over so many years to bring peace and stability 
to the nation of Afghanistan and to the people there, and 
particularly to the women there. It is a debt of gratitude our 
Nation owes to you.
    I am also mindful of the sacrifice of the sons and 
daughters who have lost their lives or lost loved ones in the 
conflict in Afghanistan. It breaks my heart to think of these 
soldiers and the blood that was shed, and yet I recognize that 
as they carried out their responsibilities to serve our country 
in a foreign place and, nonetheless, were injured or lost life 
there, that they believed that the things they were fighting 
for were in the best interests of their fellow brothers and 
sisters across the world, and were in the best interest of the 
United States of America. And I think it is important that we 
understand what their sacrifice brought to the people of 
Afghanistan and to the people of the United States of America.
    And I will begin with a question by asking, are you 
satisfied with the negotiating process that was carried out 
between yourself and the Taliban? Do they--the agreements 
reached, were they honored in large measure, or do you believe 
that we were not dealt with in a fair manner in our--in your 
negotiations with the Taliban?
    Ambassador Khalilzad. Well, thank you very much, Senator 
Romney. It is a great pleasure and honor to see you again. 
Under the circumstances, with the desire of the United States 
to withdraw its forces from Afghanistan, the agreement that we 
struck with the Taliban was the best possible under the 
circumstances. And with regard to the implementation of the 
agreement, I would say that the inter-Afghan negotiations, 
which is foundational for the future of that country, is one 
key consequence of that, and those have started. And the 
Taliban, a second part, have agreed not to attack the coalition 
forces after that agreement was signed. That has been honored. 
We have had, thank goodness, no fatalities since that agreement 
was signed over a year ago.
    Number three, there was an agreement by the Taliban not to 
allow the territory that they control to be used for plotting, 
and planning, and carrying out attacks against the United 
States and its allies. That has been a positive development, 
but we are not satisfied. We would like to see more on that, 
and I can discuss that in a different format in greater detail. 
But there are other areas in which we are less satisfied. The 
level of violence has been too high compared to what we 
expected to happen. So positive, but also some areas of concern 
that have remained.
    Senator Romney. Thank you, Ambassador. What do you 
predict--I know you are not going to want to make a prediction, 
but do you predict that there will be an agreement reached 
between the Government of Afghanistan and the Taliban, and 
stability or relative stability and--or do you instead see an 
imminent collapse, that as soon as we are gone, that the 
military runs, that the Government folds, that the Taliban 
takes over and we find herself in the same position of the 
Afghanistan we looked at 20 years ago? Which do you see, and if 
there is a different forecast, I am happy to hear that.
    Ambassador Khalilzad. Sure. I do not personally believe 
that there will be an imminent collapse. I know there are 
others who have had a different view. I believe the choice that 
the Afghans face is between a negotiated political settlement 
or a long war, and this is a choice that the Afghan leaders 
make for the sake of their current generation of Afghans and 
future generations. I hope they will learn from the mistakes of 
the past, such as when the Soviets withdrew, that rather than 
coming together, agreeing that by force--the record is that one 
party has tried to impose its will on others--has not produced 
results, stability, progress, that they come to an agreement on 
a formula where they can compete and cooperate.
    That opportunity is once again confronting them, and it is 
up to them. The opportunity is there. Our support is there. The 
support of the rest of the international community is largely 
there.
    Senator Romney. Iran as well?
    Ambassador Khalilzad. Although I am, of course, very 
skeptical of Iran and its policies, but in the case of 
Afghanistan, since the announcement by the President, they have 
expressed support for a political settlement. They said they 
are opposed to a Taliban takeover, and they are opposed to the 
restoration of the emirate, as is the case with China, with 
Russia, with Pakistan, with all their Afghanistan neighbors, 
and, of course, with their allies.
    Senator Romney. Thank you. Thank you, Mr. Ambassador. 
Senator?
    Senator Kaine. We are being really polite to each other on 
this side. I think actually Senator Coons was here before I 
was, and so he would probably be next in order. Senator 
Shaheen, do you agree with me on that?
    Senator Shaheen. [Off audio.]
    Senator Coons. If you would--thank you, Senator Kaine, very 
much. Would you please check and see if Senator Cardin is 
available online or not? Is Mr. Cardin--is Senator Cardin 
available?
    [No response.]
    Senator Coons. Cardin, party of one? Cardin, party of one?
    [No response.]
    Senator Coons. May I proceed with questioning?
    Senator Kaine. Yes.
    Senator Coons. Thank you, Senator Kaine. Thank you to 
Chairman Menendez, Ranking Member Risch, for holding this 
hearing, and to Ambassador Khalilzad for your dedication and 
service and engagement on this challenging strategic issue. I 
am glad this committee is exercising its oversight role in 
examining the Administration's decision to bring America's 
longest war to a responsible end. I have heard from hundreds 
and hundreds of Delawareans over recent years who want our 
troops to come home, and I look forward to consulting closely 
with the Administration, with members of this committee, our 
allies and partners, and the Afghan people to do our best to 
support the peace process, and to find a responsible path 
forward.
    As the chair of the appropriations subcommittee that funds 
our foreign assistance programs, I am concerned about our 
ability to successfully implement what have been, for 20 years, 
robust assistance programs to support the development of 
Afghanistan and the Afghan people, particularly if violence 
increases after withdrawal, particularly if the Taliban do not 
keep some commitments that they have made. Speaking for myself, 
I will continue to support robust development assistance for 
the Afghan Government and the Afghan people, but not if there 
is a takeover by the Taliban and they break some basic 
commitments to respecting the role of women, and fundamental 
human rights, and a democratic process.
    So, Ambassador, how can we ensure the viability, the 
success of our ongoing development programs of our investment 
in the Afghan Government and the Afghan people, and what could 
this committee and the Appropriations Committee do to be most 
relevant and helpful?
    Ambassador Khalilzad. Well, thank you very much, Senator. I 
believe that the Afghans might be also watching these hearings. 
The message of commitment to them, that we renew a partnership 
with them and no direct military presence, but a commitment to 
them to development assistance, humanitarian assistance, and 
even security assistance to the armed forces of Afghanistan 
will be robust. That is what we would like to have, but, of 
course, it depends on the conditions and the performance by the 
Afghans.
    I believe that the development assistance which Talibs say 
they also want from the United States provides us with leverage 
to incentivize, but, as you say, and I support that, it would 
be condition based depending on--that the Afghans will make 
their own choices, and the United States, in turn, will respond 
to that and makes its decisions. They know there is no 
ambiguity, Senator, I can assure you, based on conversations 
that we have had with the Taliban or with the other Afghans, as 
to where we stand, what we would like to see happen. We respect 
that they will make their own decisions, but we will respond to 
that. But our commitment to continue with the strong 
partnership with Afghanistan has been clear, and we have 
expressed it. And I am grateful for what you said, Senator.
    Senator Coons. I am interested in hearing from you your 
assessment of China's interests in Afghanistan going forward. 
We have recently marked up a broadly bipartisan bill about 
strengthening the United States and our tools and our abilities 
with regards to engaging in the world. And part of what 
informed that debate was a clear-eyed view about China as a 
competitor in some spheres and as a potential partner in 
others. What do you see as China's core interest in 
Afghanistan? And my last question. If there is a resurgence of 
violence in Afghanistan, do you see a scenario where the Afghan 
Government might request U.N. peacekeepers? There was 
strikingly earlier this month a South China Morning Post story 
that Beijing was considering sending a peacekeeping force to 
Afghanistan, which surprised me. So if you would answer both of 
those questions, I would appreciate it.
    Ambassador Khalilzad. Well, thank you very much. Of course 
one of the realities of the current world is an increasingly 
assertive China. And with regard to Afghanistan, the Chinese 
have been satisfied to see us deal with the challenge of 
Afghanistan, the challenge of terrorism in Afghanistan that 
they also feel threatened by. And now China and other neighbors 
of Afghanistan have to rise to the occasion, encourage a 
political settlement, and then provide assistance--development 
assistance for Afghanistan as well. I think the withdrawal, 
some in China fear that we had some permanent presence concept 
for our forces in Afghanistan that could threaten their 
interests. But now, of course, there is--it is a changed 
environment, and I hope they will rise to the occasion. They 
have said their core concern is terrorism from Afghanistan, but 
they have also had some economic interest the last several 
years. They have been interested in some of the resources of 
Afghanistan, some mines to develop those. Because of the 
security environment, those have not really borne out, in part. 
But China's interest--I think core number one interest--has 
been the terrorism interests and economic interests second.
    Senator Coons. Is there any credible scenario in which the 
Afghan Government would request international peacekeepers? 
Last question.
    Ambassador Khalilzad. Well, if there is a settlement, then 
one notion in peace settlements where a third party has been 
the enforcer have tended to last longer. The academic 
literature demonstrates that. So that is a possibility that 
they might. That is obviously their decision, but as of now, 
this has--this issue has not come up. But we have asked the 
U.N. to play a more active role in promoting, facilitating the 
peace process in Afghanistan.
    Senator Coons. Thank you very much, Ambassador. My 
understanding is that Senator Johnson is the next senator to 
question.
    Senator Johnson. Thank you, Senator Coons. Mr. Ambassador, 
welcome. In your opening statement, you used a phrase similar 
to your policy is going to be based on clear-eyed facts on the 
ground. You also mentioned that ``if the Taliban wants to move 
forward.'' I have never seen much evidence of the Taliban 
embracing the modern world, wanting to move forward. They seem 
to want to move back, and I really fear that they are going to 
move back to how they governed Afghanistan earlier. Is there 
evidence that they truly want to move forward, that they will 
embrace, you know, some movement toward a modern world?
    Ambassador Khalilzad. Well, we will have to see whether in 
practice they will. They say they do. Obviously, they have 
their own values and they have expressed it, but those values 
that they speak about--Islam--that is present in many countries 
in the world in that region and beyond, and you see that--those 
values practiced differently from place to place. And the 
Talibs say they are interested not being a pariah and being 
welcomed, and we will have to see. All I can say is that we 
have made it clear that if they do, they can end their prior 
status. There can be progress in a relationship with us and 
with others. But if they do not, the very thing that they say 
they do not want to happen will be inevitable.
    Senator Johnson. I think all of our concern is we have seen 
in the past how they practice their values in an incredibly 
brutal fashion. And I do not want to preempt Senator Shaheen's 
questioning here, but in our secure briefing, she pointed to a 
classified document describing or potentially predicting what 
is going to happen to the women and girls in Afghanistan. In 
your testimony, you also said if the Taliban behave in a 
certain way, that we will hold them accountable. So the two 
questions I have, first of all, what can you say publicly in 
terms of what the predictions are in terms of Taliban treatment 
of women should they take over the Government?
    Again, you know, personally I am concerned about public 
executions and other forms of brutality that will just be so 
incredibly offensive, and if that is the case, what do we do? 
Are we going to sit back and just watch that, wring our hands, 
mourn the fact that we had made so much progress? And, by the 
way, I think America and allies have to take pride in the 
progress that was made. I think that is probably our biggest 
concern here is having that--all that progress be for naught. 
But, again, the question is what were the predictions that you 
can talk about in an unclassified setting, and how would we 
hold them accountable?
    Ambassador Khalilzad. Well, thank you very much, Senator. I 
share those concerns, and I have been grateful to Senator 
Shaheen for always raising them. And we have been very mindful 
of that, and we are very proud of the positive developments 
that have occurred thanks to American generosity and American 
support. But, of course, war is a terrible thing, and there 
have been some setbacks in Afghanistan with regard to values 
because of the ongoing war. And some schools have been closed 
because of security environment, mothers are not sending their 
kids--parents to school. Sometimes there are heartbreaking 
stories even. Some members of the Afghan elite that send 
their--if they have two kids, send them all on alternate days 
to school because they worry that they might lose both kids in 
one incident.
    So there is the yearning for peace, for ending this war 
that is there, but there is also the concern about what the 
Talibs will do given their past record. We have said that they 
do want U.S. assistance, they want international acceptance, 
they want to end their prior state, they want de-listing. Those 
things will be all affected by how they treat their own 
citizens, first and foremost, the women of Afghanistan, 
children and minorities. The issue is should we use the U.S. 
troops to enforce particular values, especially in a situation 
where we have been there for 20 years and a war that--for which 
there is no military solution. We have other instruments that 
will remain relevant and powerful, in my view, that we would 
have to rely on and send that message loud and clear, like you, 
Senator Shaheen, and other senators have made today.
    Senator Johnson. Well, thank you. Hopefully Senator Shaheen 
can maybe get a little more detail there. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. I understand Senator Cardin is not 
with us at this moment on Webex.
    Senator Cardin. I am with you.
    The Chairman. Ah, okay.
    Senator Cardin. Sorry about that.
    The Chairman. This is the virtual world. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. First, let me 
thank our witness for his incredible service to our country, 
and I think we all agree that there is no easy solution here 
and there are no good options. So I heard you testify as to the 
effect that if Afghanistan, with or without the Taliban, wants 
to be a country that is respected globally and does not want to 
be a pariah state, then they are going to live up to their 
commitments on anti-terrorism and on human rights. So I want to 
seek your advice.
    That is a lot easier said than done, and I mean taking 
action against the Government when it violates norms on anti-
terrorism or human rights. Anti-terrorism is little bit more 
easy for us to define. Human rights is not. So what advice 
would you give us to be in the strongest possible position to 
enforce good governance on Afghanistan, to make sure there is 
no backsliding on the progress that they have already made, to 
make sure that women and girls' rights which have been very 
difficult in that country do not move in the wrong direction? 
What advice would you give to the United States Senate or to 
Congress in order to maximize the leverage so that, whatever 
happens with withdrawal of our troops, we are in the strongest 
possible position to encourage the Government of Afghanistan to 
live up to its commitments on human rights?
    Ambassador Khalilzad. Well, thank you very much, Senator. I 
think the key instruments to rely on for incentivizing 
compliance to the commitments that the Afghan Government or the 
Taliban, or the Taliban as part of a future government, that 
they remain committed to that, is to, first, make assistance 
conditional on compliance, on progress in dealing with problems 
of human rights, with issues of governance, and to----
    Senator Cardin. If I could just interrupt you on that point 
because we can do that. The challenge is that there are 
normally waivers that are done in those circumstances or it 
gets involved in the discussions on cooperation on anti-
terrorism, and sometimes the commitments to human rights gets 
pushed to the back burner. Yes, we can condition aid, but we 
then normally give the Administration discretion on how to 
exercise that conditionality. Is there a way that we can be 
clear as to the importance of the protection of women and girls 
and other human rights issues?
    Ambassador Khalilzad. Well, of course, clear statements are 
important; of course, the challenges of checks and balances, 
discussions that occur on many fronts that ultimately shape our 
policy. And I would believe that, going forward, that two 
issues that will remain paramount in our policy regarding 
Afghanistan would be the issue of threats from Afghanistan, 
that we want compliance in dealing with that, and on human 
rights and development issues. So we need to make it clear that 
both are important, and that, with regard to incentivizing 
cooperation on terrorism, not only the relationship with 
security forces in Afghanistan will remain important, but also 
demonstrating--keeping our eyes on the ball, demonstrating a 
capability that we can take action if necessary.
    And with regard to the other part of the agenda, I think 
conditionality and advocacy on behalf of those conditionality's 
will remain important. I know that the Administration--I 
personally have made it very clear that issue of human rights, 
particularly women's rights, is second to terrorism in terms of 
the hierarchy of U.S. policy importance, and we need to 
continue to do that. But I do not have a fix for the checks and 
balance and the process of negotiations that take place when 
decisions are made. But I would say that what you are saying 
and Senator Shaheen is saying will remain important advocacy on 
behalf of human rights.
    Senator Cardin. And we will continue to speak up, but I 
would just point out, Mr. Chairman, it may be important for us 
to give directives to the Administration in regards to these 
issues. So it may be necessary for congressional action to make 
it clear to the Afghan Government that, if there is 
backsliding, the Administration is not going to be able to save 
them in negotiations, that Congress is going to demand that 
action be taken to protect the rights of women and girls, and 
to protect human rights for the people of Afghanistan, that 
there be no backsliding. We will be clear, but I am concerned 
about what happens at the diplomatic table at times, and this 
is an area that is just too important for us to lose the 
progress that we have made. Thank you, Mr. Chairman.
    Ambassador Khalilzad. Thank you.
    The Chairman. Thank you. I appreciate your comments and 
look forward to working with you to make sure the 
Administration knows where we stand on these issues. Senator 
Risch.
    Senator Risch. Well, thank you, Mr. Chairman, and I would 
certainly agree with our distinguished colleague who just 
spoke. I think we need to be very clear with the Administration 
as to what our thoughts are in that regard. I think probably 
the Afghans already know where we are, but it would not hurt to 
underscore that and tell them we really, really mean it through 
the--through the Administration. Along those lines, Mr. 
Ambassador, you talked about your work in getting the 
constitutional rights for women in the Afghan constitution. 
Indeed, some of the predictions that have been made, and it 
seems like the majority of predictions, is that it is merely a 
matter of months before the Taliban retake the entire Afghan 
Government. What is your view of the likelihood--what is your 
view of those rights that are in the constitution, those 
women's rights in the constitution, staying in place? What is 
the likelihood of that happening up?
    Ambassador Khalilzad. Thank you, Senator. When you were out 
of the room, I associated myself personally that I do not 
believe that the Government is going to collapse, that the 
Taliban is going to take over.
    Senator Risch. I understand that is your view, but suppose 
the other view pervaded.
    Ambassador Khalilzad. I think that we should all--we should 
be concerned that those rights could suffer, and we would have 
to then use our diplomatic engagement. If there is a government 
dominated by the Talibs, that recognition, normal relationship 
with it, dealing--providing assistance, diplomatic support for 
the concerns that they would have, would be not available if 
they did not respect the human rights of Afghan women and other 
citizens of Afghanistan. That will be the instrument that we 
would have to rely on. But I share the concern, and that--and I 
think not only I share it, but Administration as a whole is 
both concerned--would be concerned, and we will do whatever we 
could to shape Taliban actions and respond based on what they 
decide and what they do.
    Senator Risch. And, again, first of all, to be clear, I 
hope you are right, and that is that the Administration can 
hang on in Afghanistan. But, as you know, there is a very 
substantial cadre of people who think that is not going to 
happen, and even the most optimistic think it will only be a 
matter of months. And you would agree that if that happens, 
those constitutional rights that you worked to get into the 
constitution there are, in all likelihood, in jeopardy since 
the Taliban do not share the same view on that issue. Am I 
right on that?
    Ambassador Khalilzad. Well, I have a concern about that, 
yes.
    Senator Risch. All right. Thank you. And then, again, not 
trying to be too pessimistic, but realistic. And that is, if 
collapse does happen within a matter of months, and 
particularly if it starts looking like that very quickly, do 
you agree that we ought to hold up on this $300 million that 
have--that we have talked about as additional assistance for 
Afghanistan, and be more cautious as far as distributing that 
at this point?
    Ambassador Khalilzad. Well, our actions, as we have said 
repeatedly, will depend on the actions that the Afghan 
Government takes. If the Taliban were in that government or 
dominated that government, certainly our assistance will be 
conditional on what they do.
    Senator Risch. Well, that is certainly the case. I guess I 
am talking about the interim right now when we are in this 
state of flux where we are moving out and the Taliban, at least 
they are telegraphing to some people that they are going to 
move in. It seems to me we would be better off holding onto our 
$300 million right now until we see exactly which way it is 
going.
    Ambassador Khalilzad. But the announcement of the release 
of the $300 million that we had withheld was to demonstrate to 
the Afghan Government that we are in support of the Government 
and in support of Afghan women and civil society at this time 
of transition where our military role will change and our 
military presence will end, that we are committed to a positive 
engagement with the current government. It does not say 
anything about a future government that would be, speculation, 
dominated by the Talibs. In that case, obviously, we would have 
to review.
    Senator Risch. Well, it seems to me that simply by handing 
over the $300 million and demonstrating that we support the 
current government is not going to help them hang on in the 
face of the Taliban. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you for your service. Thank you for continuing to come before 
our committee, both in classified and open settings. I think my 
sense is, and others would likely agree, that both President 
Obama and President Trump's instinct was likely to end the war 
in Afghanistan, focus resources other places, and admit that it 
was not likely that, during their Administrations, our goals of 
political and military stability in Afghanistan were going to 
be met. They were convinced otherwise, ultimately in part by 
military leadership that put on a very impressive presentation 
about what could happen if we stayed another year or two. I 
know those presentations are impressive because I have watched 
probably a dozen of them. Every time that I went to 
Afghanistan, a new, impressive, highly-credentialed general 
would explain to me how the next year was going to be different 
than the prior year.
    I think President Biden came to the conclusion, as he said 
in his remarks, that we are at a point where we have to accept 
the facts on the ground rather than the fantasy of endless 
PowerPoint presentations. And the facts on the ground are that 
we are moving backwards, not forwards, that the security 
situation is getting worse, not better.
    And so I guess I have one additional question, but given 
that there is nobody that knows this portfolio better than you, 
just to speak for a moment about what it would look like if we 
stayed for another year at our current levels, and why the team 
has come to the conclusion that it is likely the trajectory 
would continue, that the security situation would continue to 
degrade, the Taliban would continue to advance, the Afghan 
Government would not be any closer to being legitimate in the 
eyes of the majority of the Afghan people. That is not an 
appetizing scenario, but I think the conclusion was made that 1 
more year or 2 more years was not going to change the 
trajectory. Am I wrong about that?
    Ambassador Khalilzad. Well, two additional factors to your 
very able description of the conditions, one, that if we did 
stay another year or two or indefinitely, that we will be back 
at war with the Talibs. For last 13 months or so, they have 
not--that we have not had any fatalities because part of--one 
consequence of the agreement was for the Talibs not to attack 
coalition forces, although we had the right to come to the 
defense of the Afghan forces under the agreement when they were 
attacked by the Talibs. If we said we are staying, we are 
getting out of that agreement, it means we would be back at war 
with them. So whether the current numbers then would satisfy 
that we have had 2,500 plus, there could have been potentially 
demand for more forces to be able to maintain the status quo, 
not to lose significant ground.
    But, two, that we were--the military balance was changing 
territorially negatively for the past several years, so things 
were not standing still with--in the configuration that we have 
been in for the last several years. So there was no military 
solution. I think that that was a judgment for some years for 
Afghanistan, but the decision to pursue a withdrawal and a 
political settlement, I think several presidents had that in 
mind, and, of course, we know what President Biden decided.
    Senator Murphy. So there are capabilities, especially on 
the military side, that we have been midwifing for 20 years. I 
mean, I remember going there during my House days and hearing 
about our desire to have the Afghan air force be able to 
provide their own close air support so that they would not be 
reliant on us. We have made very little progress on many of 
these capabilities, including that one. They are still very 
reliant on us to provide that support for counterterrorism 
missions. Is it your assessment that some of these security 
capabilities are unable to be possessed by the Afghan military, 
or is that they were conveniently able to rely on us for the 
last 20 years, and so they did not have to do the difficult 
work of constructing their own security capacities?
    Ambassador Khalilzad. Well, first, the Afghan security 
forces have developed significantly. I was ambassador--special 
envoy first and ambassador since 2002 to 2005, and really 
nothing existed, so now we are talking about the capabilities 
of the forces exist. They have very capable special forces in 
the thousands, perhaps as high as 40,000. Their air force, yes, 
is dependent on us for maintenance and even some degree of 
operations, but it has been effective in many operations. It is 
used to compensate for some of the challenges in other areas. 
And we are working with them to make sure that as we withdraw, 
that they have access to others who could provide those 
services for them.
    I think we need to continue to invest in those security 
forces, to assist them, and we are committed to doing that, but 
we will have to make arrangements where we used to do it, now 
they have to do it. I believe that sometimes we--some of our 
analyses are worst-case circumstances that--or challenges that 
we confront, but I think the--it would be a mistake, in my 
judgment, to dismiss the Afghan security forces as not being a 
credible force that could perform well, although they will face 
more difficult circumstances now.
    Senator Murphy. You have been consistent in your relative 
optimism about the capabilities of the Afghan security forces.
    Ambassador Khalilzad. Right.
    Senator Murphy. We hope that you are right.
    Ambassador Khalilzad. Right.
    Senator Murphy. Thank you, Mr. Chairman.
    Ambassador Khalilzad. Thank you.
    The Chairman. Thank you. Senator Portman is with us via 
Webex.
    Senator Portman. Thank you, Mr. Chairman. I appreciate the 
testimony today, Ambassador Khalilzad, and, more importantly, 
your service over the years, including many years devoted to a 
peaceful resolution in Afghanistan. And I understand you are 
supporting the Administration today. I imagine you are doing it 
with mixed feelings given what you have been through. Could I 
ask you a couple of scene setters? How many American troops are 
in Afghanistan?
    Ambassador Khalilzad. I think slightly above 2,500, I 
understand.
    Senator Portman. Okay. And how many troops are in Kuwait?
    Ambassador Khalilzad. I do not know that. I do not----
    Senator Portman. Thirteen thousand five hundred. How 
about--how about Qatar? Eight thousand.
    Ambassador Khalilzad. Right.
    Senator Portman. In Bahrain, 5,000. Are the majority of the 
coalition troops American troops in Afghanistan?
    Ambassador Khalilzad. No.
    Senator Portman. The majority are other NATO troops, right?
    Ambassador Khalilzad. Right.
    Senator Portman. I do not know. I just--I think that is 
important scene setter to understand what we are talking about. 
How many casualties have been among American troops over the 
last year, say?
    Ambassador Khalilzad. No fatalities, but some casualties, 
but not very many.
    Senator Portman. Yeah. So I just think we need to set that 
as the stage. Look, this is a tough question. It is a really 
difficult one, and I do not envy you or others who have to make 
the decision. But I am very concerned that we are pulling out 
not because of any conditions having been met, but just 
choosing an arbitrary date which gives the Taliban tremendous 
leverage, and I think it unravels a lot of the progress that we 
have made. And I asked my team to tell me something about what 
has happened. I have been there, as I think almost all members 
have who have been in Congress for a while. I have been there a 
few times and seen this.
    But we now have women who have been given an opportunity to 
participate in the economy. Women now have joined the military. 
They have now joined the police. They have now held political 
office. They have become internationally-recognized singers. 
They have competed in the Olympics. Over the past two decades, 
we have spent millions of dollars and done a lot of hard work 
to ensure that. And a Taliban takeover stemming from a U.S. 
withdrawal, which, to me, seems likely at some point, must mean 
that all those points of progress that I know you are very 
proud of, are going to be reversed. Do you disagree with that?
    Ambassador Khalilzad. I just want to make one comment, 
Senator, which is that the reason that the casualties are low 
and no fatalities is because of the agreement that we have had 
with the Taliban, which required us to withdraw altogether, and 
that without that agreement, if we want--went back to war, that 
that is the alternative if we did not implement withdrawal.
    Senator Portman. Well, let me--if I could, let me talk 
about that agreement just for second, Mr. Ambassador.
    Ambassador Khalilzad. Sure.
    Senator Portman. That is the February 2020 agreement you 
are talking about. It was interconnected. We said we would 
withdraw if the Taliban took action to prevent Afghanistan from 
being a terrorist haven for al-Qaeda and other groups. But, you 
know, from the DIA, to the Treasury, to the United Nations 
monitoring team, this is what we found over the past year. AQ 
members--al-Qaeda members--are integrated into the Taliban 
forces and command structure. Taliban is creating a safe haven 
for AQ. The Taliban is not taking steps to suppress the threat 
that AQ poses to the international community. Would you 
disagree with those?
    Ambassador Khalilzad. It is our judgment, and I could go 
into details in an appropriate setting----
    Senator Portman. Yeah.
    Ambassador Khalilzad. --that the Taliban have taken several 
positive steps, as I mentioned before, with regard to 
terrorism, the commitments not to host--not allow training or 
fundraising or recruitment by these terrorist groups that would 
threaten the United States or our allies, that they have taken 
several positive steps. But we are pressing them for more.
    Senator Portman. Well, the evidence--I would say that the 
evidence is clear that they have not kept their part of the 
agreement. And so when we talk about the agreement, you know, I 
just worry it becomes a safe haven for terrorists again. I 
know--this is not easy stuff, and yet I am very concerned. And, 
you know, I--again, I have been there. I have had some troops 
from Ohio, our troops that have had injuries in Afghanistan. I 
know there have been casualties and there have been fatalities, 
but do think that pulling out on an arbitrary date, not 
conditions based at all and not providing any sense of 
continued support for the intelligence community to be able to 
keep us safe from what happened on 9/11, concerns me a lot.
    So, again, I thank you for your service. You have been a 
stalwart in various administrations, including your service to 
Afghanistan over the years. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Kaine has stepped out for 
the moment, so I will turn to Senator Booker who is with us 
virtually I understand.
    [No response.]
    The Chairman. Senator Booker.
    Senator Booker. I am here. Thank you very much, Mr. 
Chairman. I really appreciate it, and I have appreciated this 
conversation so far. I want to reiterate the concerns that have 
been expressed about human rights and the challenges that will 
be facing Afghan women after this. But in the meantime, I would 
like to go a little bit deeper from our witness, and I express 
my appreciation for the witness' service to our country. Could 
you share the posture of our allies in this effort, and who 
will share some of the burden with us in the days after our 
withdrawal, and what their position and focus will be as well?
    Ambassador Khalilzad. Well, thank you very much, Senator. 
As it was stated, right now our allies have more forces in 
Afghanistan than we do. Our allies share with us values, and we 
are in lockstep in terms of conditionality of assistance going 
forward, making that clear to the Talibs that if they do not 
respect human rights, do not honor Afghanistan's commitments, 
which they cannot count on assistance from our allies, and--of 
course, we speak for ourselves--and the United States. So we 
are--we have a very strong group, U.S. and our European allies, 
that we had a meeting virtually a couple of days ago going over 
where we are and what do we do next. And the concern is shared 
there with regard to human rights between us and our allies.
    Senator Booker. Well, I appreciate the human rights 
concerns. I want to just turn a little bit to the concerns I 
have on our counterterrorism, joint efforts, and perhaps you 
can talk to me about how credible you believe the Taliban 
assurances are on not allowing al-Qaeda to operate anywhere in 
their areas of controls. There are, as one of my colleagues 
mentioned before, concerns about the infiltration of al-Qaeda, 
but I am wondering how credible do you think their assurances 
are in terms of their operations. And, again, as was mentioned 
earlier, we have no basing agreements in Central Asia. And in 
light of Russia's cultural, historical ties to the region how 
difficult do you think will be for the U.S. to operate in the 
region, and counter those threats that might occur from the 
number of other terrorist organizations in the region?
    Ambassador Khalilzad. Well, as you have heard from the 
intelligence community, there will be some degradation in terms 
of our ability to know exactly what is going on. We do not have 
a physical military presence associated with other agencies 
there. But we believe, given the nature of the threat right 
now, with efforts that are underway to--for the over-the-
horizon presence to monitor, that we would get adequate 
warning. That is outside my domain. You should ask the 
intelligence community, but that we would get adequate warning 
to be able to respond. That part of our effort right now is 
to--not only to have capabilities placed to the best level 
possible given that we would not be in Afghanistan itself, that 
we will have the capabilities in the region now, for the near 
future, obviously will be largely in the Gulf, but perhaps 
beyond that area to respond in a timely manner. Having those 
structures or those capabilities in place, I believe, would be 
important also to send a message that there will be 
consequences if Afghan actors allow that threat to re-emerge or 
to grow.
    Senator Booker. And the last thing I would like to get your 
input, I know that there has been a decrease in their poppy 
cultivation and the heroin production. Afghanistan's illicit 
drug economy remains a very significant driver in the region 
and has been for decades. And I am just wondering what plans, 
if any, does the Administration have to try to address the 
Afghan drug trade and its international implications after 
withdrawal of U.S. forces?
    Ambassador Khalilzad. Well, we have been very focused on 
this challenge, as you said, Senator, for some time. 
Unfortunately, the results have not been commensurate with 
the--of the level of efforts that have been made. But the 
challenge, of course, remains, and the same focus on this 
issue, not only by us, but by our allies and neighbors, will be 
important. As long as there is demand, unfortunately, supplies 
will be--will come from someplace, and right now it is focused 
significantly in Afghanistan. But with that law enforcement, 
alternative livelihood, eradication, all these comprehensive 
strategies that we have been supporting, I believe we will 
continue to focus on this challenge.
    The Chairman. Thank you.
    Senator Booker. I want to thank you again for your service 
to our country and appreciate the opportunity to have this 
public conversation with you. Thank you, Mr. Chairman.
    Ambassador Khalilzad. Thank you, Senator.
    The Chairman. And happy birthday to our colleague from New 
Jersey.
    Senator Booker. Thank you.
    The Chairman. Next is Senator Hagerty on Webex.
    Senator Hagerty. Chairman Menendez----
    The Chairman. Yes, sir?
    Senator Hagerty. --thank you very much. Senator Booker, 
happy birthday to you as well. Ambassador Khalilzad, it is good 
to see you again.
    Ambassador Khalilzad. Good to see you, sir.
    Senator Hagerty. Ambassador, I would like to go to an area 
that definitely is in your wheelhouse, but I would like to put 
it into the context of what the Biden administration has 
recently announced. Earlier this month, the Administration has 
announced it is going to withdraw U.S. troops, which will also 
lead to the withdrawal of NATO forces there in Afghanistan. Yet 
at the same time, the Administration has said that it will 
continue diplomatic efforts there in Afghanistan, yet I note 
that today, the Administration has announced that it is going 
to be drawing down our diplomatic corps in Kabul. So I would 
like to ask you, Ambassador, what is the Administration's plan 
to continue our diplomatic efforts in Afghanistan in the 
absence of U.S. and NATO forces? Also, I would like to ask you 
to what extent we depend on U.S. and NATO forces today for our 
diplomatic efforts, and to what, if any, extent do you think 
those diplomatic efforts will be constrained by the removal of 
those forces?
    Ambassador Khalilzad. Well, thank you very much, Senator. 
Of course we are committed to--the Administration is committed 
to maintaining strong diplomatic presence at our embassy and 
that we will take the necessary measures to protect that 
embassy. With regard to the announcement or the leak that 
happened, yes, there will be some small number of diplomats and 
right-sizing the embassy, that those who are not necessary to 
be there, they can do their job from elsewhere, that will 
happen, but it will not affect the operation or the 
capabilities of the embassy. We are very much committed to 
that.
    As to the negotiations, well, we had already agreed as part 
of the agreement with the Taliban to withdraw forces, part of 
which was also the commitments they made on terrorism, the 
commitments to start inter-Afghan negotiations, historic 
negotiations that have started, that the military, if we had 
not withdrawn, would have implied undermining diplomacy in 
terms of the peace negotiation that started based on the 
agreement to withdraw, and would have increased violence in 
Afghanistan, but also get us back in direct war with the 
Taliban, perhaps necessitating that we send more troops, while 
believing that there is no military solution, so, in other 
words, an indefinite war. So I think that the alternatives were 
difficult ones. I think after a lot of assessment and 
discussion, the President decided what he did, to go with a 
Condor-based withdrawal rather than a conditions-based 
withdrawal.
    Senator Hagerty. Ambassador, I think that our diplomatic 
efforts are going to be significantly challenged, and the 
drawdown from Kabul underscores my concern that our diplomatic 
efforts be effective. I hope that you will continue to monitor 
the situation closely. I know you are going to have a great 
deal of responsibility here. I thank you for your service, but 
I also encourage you to consider a detailed plan as things on 
the ground are going to change significantly, in my view, as we 
draw down our forces. Thank you.
    Ambassador Khalilzad. Well, thank you, Senator.
    The Chairman. Thank you. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair and Ranking Member 
Risch, and thank you, Mr. Ambassador. The question that we are 
grappling with in this committee and also another committee--so 
I am on Armed Services as well--is not whether the U.S. will 
stop being a partner with Afghanistan. Obviously we will 
continue security assistance. We will continue diplomatic 
assistance. We will continue development assistance, 
humanitarian assistance, trade would be my hope, with regional 
partners. The question that we are grappling with is whether we 
should start a third decade of combat operations in Afghanistan 
with U.S. troops.
    There are a lot of different possibilities for when the 
U.S. seeks--stops military operations in Afghanistan, and all 
have some legitimate chance of coming to pass. Some believe 
that the Taliban will take over Afghanistan. Some believe 
Afghans, having seen 20 years of improved life expectancy, 
electricity deployment, public health, education, will decide 
they want to fight to maintain that. Some believe it could 
continue to be sort of a frozen conflict without a clear 
winner, or there could be a peace negotiation that might 
produce any range of outcomes. But I support President Biden's 
decision because I think the consequences and the possibilities 
that I just put on the table are not, after 20 years, dependent 
upon the United States military. I think they are dependent 
upon Afghan desire, Afghan will. We spent 10 years finding and 
kill bin Laden, and we spent 10 years training half a million 
Afghan security forces, to include police, and I think at this 
point, those decisions are going to be made by Afghans with the 
U.S. as a continued partner.
    What I would like to ask you about, Mr. Ambassador, because 
my colleagues have done a good job of looking at this from a 
number of angles, is the region. Afghanistan is bordered by six 
countries. So it is China and Iran. It is Pakistan, and then it 
is, I think, Tajikistan, Turkmenistan, and Uzbekistan. So six 
nations surround Afghanistan, and those nations are very 
different from one another, and some we have closer 
relationships with, and some we do not. But am I right in 
basically assuming that each, for their own reasons, they 
desire a stable Afghanistan, and they would view instability in 
Afghanistan occasioning refugees or Afghanistan becoming a 
haven for terrorists? They would view significant instability 
in Afghanistan as dangerous to their own national interest. Is 
that fair to say?
    Ambassador Khalilzad. Well, thank you, Senator. You have 
painted a good picture of alternative futures for Afghanistan. 
But with regard to the question, I believe that while we have 
been there, they have all looked to us to solve their problem--
the problem in their neighborhoods, so to speak. Now our hope 
and expectation is that they will rise to the occasion, that a 
stable Afghanistan requires a broad-based agreement among 
Afghans, that no single element can, by force, dominate the 
country and create stability. The last 40 years, that is what 
demonstrates that. The effort by Communists in the eighties to 
force their will produced the war, then efforts by various 
mujahideen groups to dominate produced another war, the Talibs 
trying to dominate produced another war. So these are lessons 
the leaders have learned.
    But it also means the neighborhood, the region has to rise 
to the occasion because sometimes Afghanistan's war has been a 
proxy war of different neighbors supporting different elements. 
But if Afghanistan could become stable, it is an opportunity 
for the region in terms of trade for Central Asians to be able 
to export their products or import. It would be a great 
opportunity, which is a vision that we share and support, 
increased trade, increased connectivity, increased integration 
on the economic front.
    So they have their own moment of big decision of choice, 
but we are working with them. And I believe there is consensus 
that the Taliban taking over Afghanistan is not in anyone's 
interest because that would mean a continuing war besides other 
threats that that could produce for refugees, as you mentioned. 
So we are working very closely with those that we can. We 
obviously--as you point out, we do not have the best of 
relations with some of them, but I think this is the defining 
moment not only for Afghans to rise to the occasion, but for 
the region as well.
    Senator Kaine. I think the region has benefited 
tremendously at the American taxpayers' expense----
    Ambassador Khalilzad. Right.
    Senator Kaine. --in terms of the stability that we have 
been able to bring--the degree of stability we have been able 
to bring.
    Ambassador Khalilzad. Right.
    Senator Kaine. They have much more existentially at stake 
with instability in Afghanistan than the United States does.
    Ambassador Khalilzad. Right.
    Senator Kaine. And, like you, we hope that they recognize 
that and they step up. Thank you, Mr. Ambassador. I yield back, 
Mr. Chair.
    The Chairman. Thank you. Is Senator Young with us 
virtually?
    [No response.]
    The Chairman. Senator Young?
    [No response.]
    The Chairman. If not, Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman. Ambassador, 
thank you being here today, for testifying. Since you were 
appointed as special representative for Afghan reconciliation, 
I have repeatedly raised concerns about the inclusion of women 
in the Afghan peace process and, of course, about the 
preservation of women's rights in Afghanistan. I appreciated 
your acknowledging that in your comments today. Under the 
previous Administration, these concerns really seemed to fall 
on deaf ears. I am disappointed to say that my concerns still 
have not been sufficiently addressed.
    I did appreciate your referring to the rights of women and 
your commitment to that in your opening statement, and I also 
very much appreciate the fact that the chair, and ranking 
member, and my colleagues on this committee, both Republican 
and Democrat, have almost all raised concerns about what is 
going to happen. But what I really want to do is put a face on 
what we are talking about in Afghanistan. When you say the 
level of violence is too high, I want to put a face on that. 
When you say what Taliban values look like, I want to put a 
face on that, too.
    Last month, the State Department posthumously honored seven 
women who were killed in 2020. These women were given the 
Department of State's International Women of Courage Award. 
They are pictured here. They were murdered for choosing to live 
their lives outside of the narrow confines of what the Taliban 
and other extremist groups deem acceptable for women. Mr. 
Chairman, I would like to enter for the record the State 
Department statement on these women and what they devoted their 
lives to.
    The Chairman. Without objection, it shall be included.
    [EDITOR'S NOTE.--The information referred to above can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]
    Senator Shaheen. Thank you. I also want to highlight them, 
and they reflect, I think, thousands of other women in 
Afghanistan who have been the targets of violence. We can call 
them courageous, and certainly we do, but they should not have 
to be courageous to do what they tried to do. It should not 
require courage to be a journalist like Malala Maiwand, who is 
right here. It should not require courage to stand up for basic 
human rights like Fatima Khalil or Freshta Kohistani both did. 
The two of them are at the top there. All those women were 
killed by the Taliban.
    And unfortunately, that is exactly what is required of 
women in Afghanistan today, and I worry that this reality is 
only going to escalate after our departure. So I hope everyone 
who is watching this hearing today will remember these women, 
remember these seven women and the women like them, remember 
the girls in Afghanistan, the girls who should have the 
opportunity to grow up in a world with the freedoms that their 
mothers fought to secure. They are watching, and we should be 
watching.
    And I just want to also acknowledge the other four women 
who are pictured here. In the middle is Fatima Rajabi. She was 
a 23-year-old prison guard who was on her way home on a 
civilian bus stopped by the Taliban. She was kidnapped, 
tortured, murdered, and 2 weeks later, her body was sent to her 
family. At the bottom is Freshta. She was a 35-year-old prison 
guard, who was killed on our way to a taxi to get to work, 
again by gunman. At the bottom is General Sharmila Frogh. 
General Frogh was the head of the gender unit in the National 
Directorate of Security and one of the longest-serving female 
NDS officers in Afghanistan. She was assassinated in an IED 
explosion targeting her vehicle in Kabul. And finally, for me, 
the most horrific of all of these barbarous acts is Maryam 
Noorzad in the corner. Maryam was a midwife. She was killed 
when the hospital in Kabul where she was helping a woman trying 
to deliver a baby was attacked by three Taliban gunmen. They 
not only killed her when she refused to leave the woman who was 
delivering her baby, they killed the woman and they killed the 
baby.
    These are the Taliban who we are being asked to join at the 
negotiating table to support. I will not support any efforts 
that will allow them to continue to commit these horrific acts 
without any accountability for their behavior. What we do over 
the next 4 months is going to impact the lives of women for 
generations to come, and I believe we have to do everything in 
our power to support the women of Afghanistan. We have worked 
for 2 decades alongside our allies to advance the rights of not 
just women and girls, but other ethnic minorities in 
Afghanistan, and we cannot let those 2 decades of hard work be 
ignored in peace talks. We owe it to the women and girls to 
ensure that their hard-fought rights are preserved. Sadly, I 
believe an arbitrary deadline for withdrawal forces in 
Afghanistan risks those efforts.
    These seven women did not deserve to die, and we owe it to 
them and to the generations that will come after them to do 
everything to prevent any more Afghan women from the same fate. 
And, as we have heard, this is not a partisan issue. It is not 
a women's issue. It is a human rights issue, and it is a 
security issue for the future of Afghanistan. I want to point 
out, Mr. Chairman, and ask that this also be introduced for the 
record. This is a newly-declassified National Intelligence 
Council report on the fate of women in Afghanistan after we 
withdraw.
    The Chairman. Without objection, it shall be included.
    [EDITOR'S NOTE.--The information referred to above can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]
    Senator Shaheen. A few things in this report stood out for 
me.
    The Chairman. I would just say the Senator's----
    Senator Shaheen. My time is over?
    The Chairman. Yes, but it is very compelling, so I want to 
give her extra time, but I do want to recognize that there are 
some other members.
    Senator Shaheen. Thank you. I am almost finished, Mr. 
Chairman. I think what stood out in this report is that when 
the international community pushes for women's rights and 
pushed for women's rights in Afghanistan, we saw that that made 
a difference. I believe we have got to keep up this effort 
after the United States withdraws. Ambassador, I would urge you 
to do everything in your power to ensure that women are 
represented at the table and their rights are preserved in any 
future of Afghanistan. Thank you very much, Mr. Chairman.
    The Chairman. Thank you. Thank you for being a conscience 
in this committee and in the Senate on the rights and future of 
women in Afghanistan, and we appreciate it. I understand 
Senator Young is now with us on virtual. Senator Young.
    Senator Young. Yes, sir.
    The Chairman. Please, 5 minutes.
    Senator Young. --Mr. Chairman, and welcome, Ambassador, to 
the committee. Thank you for your years of service. We have 
spent over two decades in Afghanistan. Have we achieved our 
core national security objectives in Afghanistan, Mr. 
Ambassador?
    Ambassador Khalilzad. As the President said, Senator, we 
went to Afghanistan to root out al-Qaeda, which was responsible 
for 9/11 attacks and the planning that happened in Afghanistan, 
and now we believe that that objective has been achieved. Al-
Qaeda has been degraded significantly in Afghanistan, and the 
problem of terrorism has become more diffused, including al-
Qaeda.
    Senator Young. Yes.
    Ambassador Khalilzad. And we need to posture ourselves to 
be able to deal with that threat differently than we have done 
in the past 20 years in Afghanistan.
    Senator Young. Right. Over a two-decade period, as someone 
who was a former military intelligence officer, it does not 
surprise me at all to know that the threat profile, the threat 
of terrorist activity, the threat to our homeland, has shifted 
not just in form, not just in terms of its level and its 
nature, but geographically it has shifted as well. Is that 
accurate, Mr. Ambassador?
    Ambassador Khalilzad. That is accurate.
    Senator Young. Okay. And did that inform this decision as 
well?
    Ambassador Khalilzad. The President made that clear, yes.
    Senator Young. Okay. Is--was it assessed that, as we look 
prospectively beyond the summer and into future years, that 
there would be a spike in violence targeting our forces, 
targeting other American personnel in the country of 
Afghanistan if we stayed?
    Ambassador Khalilzad. Yes. The assessment was that if we 
stayed post-May 1, based on the agreement that the Talibs and 
us had, that they would not attack us during this period, that 
we would be back at war likely with the Taliban, yes.
    Senator Young. Right. So this is the decision whether or 
not we go back to war.
    Ambassador Khalilzad. Right.
    Senator Young. I just want the American people and I want 
my constituents to know the underlying factors that went into 
this decision. Implicit in this withdrawal, Mr. Ambassador, is 
a recognition, I think, that the Afghan national security 
forces will soon be operating without the backstop of U.S. 
technical assistance and support. But will the Administration 
continue to request Congress provide substantial financial or 
material assistance to Afghan forces?
    Ambassador Khalilzad. Yes, we will.
    Senator Young. And will those funds be able to be used to 
pay for American or foreign contractors?
    Ambassador Khalilzad. Of course the issue of U.S. 
contractors staying, that is not part of the agreement that the 
contractors could stay, so the contractors are also leaving. 
But the Afghans are without help and are looking for others to 
be able to provide that service to them, and we are obviously 
very sympathetic to them to find alternatives to the needs that 
they have in terms of maintenance and other needs to be 
addressed.
    Senator Young. Last week, Mr. Ambassador, the commander of 
U.S. Central Command testified to Congress that conducting 
counterterrorism operations against threats in Afghanistan 
without a presence in Afghanistan would be, in his words, 
``extremely difficult to do, but it is not impossible.'' He 
additionally commented that the gathering of intelligence would 
decline. He acknowledged that reality, but indicated that the 
United States will be able to continue to look into 
Afghanistan, comments that support the CIA director's prior 
warnings. Mr. Ambassador, what is your assessment of this 
challenge, and how can we support the Afghan national security 
forces to manage these threats?
    Ambassador Khalilzad. Well, we will continue to have a 
relationship with the Afghan security forces. We have a shared 
concern in that regard, and, besides, we believe that the 
Afghan national security forces are a national asset for the 
country, and, therefore, it is worth supporting. Besides, we 
obviously will have a presence in the neighborhood and the 
region that will compensate not completely, but compensate for 
the departure of U.S. forces in terms of assistance that that 
presence provided for intelligence capabilities to monitor, 
that it would be some diminution obviously with not having 
presence there. But, as I said before, the threat is also 
less----
    Senator Young. Yeah.
    Ambassador Khalilzad. --than it was at times in the past. 
It is the judgment of our President, of the leadership, that, 
yes, there will be more challenges in terms of both collection 
of intelligence and in terms of responding, but that given the 
gains that we make from withdrawal, given the nature of threat, 
that, on balance, it is the right strategy if you look at it in 
its totality of pluses and minuses of being there in an open-
ended war without any prospects for success, given that we 
believe there is no military solution. So, on balance, it is 
not obviously ideal, but it is, on balance, better than the 
alternative of an open-ended war.
    Senator Young. Thank you, Mr. Ambassador.
    The Chairman. Thank you. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Ambassador 
Khalilzad, thank you for your long and good service to our 
country.
    Ambassador Khalilzad. Thank you.
    Senator Van Hollen. As you have said and others, no one 
knows exactly what the future holds in Afghanistan once U.S. 
forces leave, and you have said rightly that the future depends 
on choices made by the people of Afghanistan, including the 
Taliban. We clearly have limited leverage with respect to those 
choices that are being made, but we are not without tools. You 
have mentioned some of them: security assistance, development 
assistance, other economic engagement on a conditions-based 
basis, including some of the issues Senator Shaheen eloquently 
raised: women's rights, a political process, peaceful 
resolution.
    Another tool that many of us have proposed over the years 
is increasing the amount of trade that could take place between 
Afghanistan and parts of Pakistan and the United States. Years 
ago, the House passed something called the Reconstruction 
Opportunity Zone legislation that would allow a limited segment 
of goods from Afghanistan and parts of Pakistan to come to the 
United States duty free, and we will be reintroducing that as a 
bipartisan bill soon. Is that the kind of tool that you believe 
could be useful in shaping some of the decisions about the 
future of Afghanistan that may be made by the parties there? 
Again, this would be a condition-based tool. The President of 
the United States would have the authority to calibrate it 
based on conditions on the ground, but what do you think of 
providing that kind of tool going forward?
    Ambassador Khalilzad. Well, thank you very much, Senator. I 
want the record to show, if I might, that I share Senator 
Shaheen's concerns about--I did not get a chance to comment on 
her presentation or her statement--that I share those concerns. 
With regard to what you said, Senator Van Hollen, that we 
support the idea of increased trade between Afghanistan and 
Pakistan, between Afghanistan, Pakistan, and Central Asia, and 
that we support increased trade between us and Afghanistan and 
Pakistan, and that I look forward to a detailed discussion of 
the proposal that you have referred to. It seems, to me, that 
it is a very worthwhile concept, proposal, to explore, and look 
forward to detailed discussion.
    Senator Van Hollen. Well, I thank you, Mr. Ambassador. I 
look forward to working with the Chairman of this committee as 
well. My guess is this is going to go to the Finance Committee 
as much as I would like it to come to this committee, but I do 
look forward to working with you. I know other parts of the 
Administration are taking a look at it as a positive tool that 
we can deploy in trying to shape the future of this region.
    There are obviously lots of countries that neighbor on 
Afghanistan, but probably the one that has the most direct 
potential influence here is Pakistan. As you have said, 
Pakistan has an interest in stability in Afghanistan. If you 
see chaos and full-blown war re-erupting, you have refugees 
coming to Pakistan. Of course Pakistan fought its own war with 
the Pakistani Taliban, did it not?
    Ambassador Khalilzad. It did.
    Senator Van Hollen. Right. You have pointed out in your 
public comments that the Government of Pakistan has helped to 
facilitate your negotiations with the Taliban in Doha. Is that 
right?
    Ambassador Khalilzad. It has.
    Senator Van Hollen. How would you characterize the support 
to the effort of the Government of Pakistan now in terms of our 
goals of trying to bring about a stable situation in 
Afghanistan?
    Ambassador Khalilzad. They have been supportive of our 
effort to press the Taliban to reduce violence, to enter 
negotiations with the Government of Afghanistan, to be an 
active participant in peace negotiations, including in 
Istanbul, Turkey, that planned conference that the Turks have, 
in cooperation with the U.N. and Qatar, have been working on. 
Pakistan has a special responsibility given its influence over 
the Taliban, and so we appreciate what Pakistan has done so 
far. But we are not there yet, and, of course, we look forward 
to working with them to get to a peace agreement between the 
Taliban and the Afghan Government in the coming weeks and 
months.
    Senator Van Hollen. No, I appreciate that. I think it is 
important to continue to pressure the Government of Pakistan to 
be a constructive player in this. But I think you would agree 
that after the Soviets left Afghanistan, right, after the 
Government of Pakistan and others supported our efforts against 
the Soviet invasion of Afghanistan, the United States 
disengaged totally from the region. What was left was a vacuum 
that the Taliban filled and that al-Qaeda then took advantage 
of. So I hope as we withdraw our forces, which I support and 
understand, we remain engaged.
    I will just leave you with this, Mr. Ambassador. I really 
hope the President--President Biden--will call Prime Minister 
Khan. My understanding is that phone call has not been made, at 
least as of the other day. It seems to me that if we are going 
to ask and rely on Pakistan to be an important player here, 
that that dialogue should happen as soon as possible.
    Ambassador Khalilzad. Yes.
    Senator Van Hollen. And I hope you will take that back.
    Ambassador Khalilzad. The dialogue with Pakistan is very 
important. I agree.
    The Chairman. Thank you.
    Senator Van Hollen. Thank you.
    The Chairman. I just want to check. Are there any 
Republican members of the committee seeking recognition? I 
haven't been told of any. If not, I understand Senator Schatz 
is with us virtually.
    Senator Schatz. Thank you, Mr. Chairman. Thank you, 
Ambassador. We have got 2,500 troops, about 450 U.S. Government 
staff. We kind of know what is going to happen with respect to 
that. I want to talk about the total sort of footprint of 
United States citizens. We have got 6,150 U.S. national 
contractors and a total of almost 17,000 U.S.-employed 
contractors. Can you talk to me about what we need to do to 
protect everyone else? The 2,500 being withdrawn is sort of the 
headline maker, but what is the presence going to be like, and 
are we going to see a corresponding reduction in U.S. presence 
in terms of contractors and others?
    Ambassador Khalilzad. I believe that there would be a 
corresponding reduction in the number of contractors as well.
    Senator Schatz. Who drives that decision, and can you give 
us a little bit better fidelity on what that is going to look 
like in terms of a drawdown?
    Ambassador Khalilzad. The withdrawal of contractors who 
supported the Afghan security forces, that is part of the 
agreement that we have with the Taliban. And so that reduction 
has been there since we signed the agreement last year.
    Senator Schatz. I am sorry. So we have got 6,150 U.S. 
nationals and a total of 16 or 17,000 employed by the United 
States.
    Ambassador Khalilzad. Right.
    Senator Schatz. Should we expect a drawdown, and, if so, 
over what period of time and----
    Ambassador Khalilzad. Well, the drawdown, of course we--as 
far as the diplomats are concerned and people working for the 
embassy, including protecting the embassy, that is one 
category. We will maintain a strong embassy presence. If your 
question is with regard to contractors that serviced the Afghan 
security forces, as part of the agreement, they will draw down 
as retrograde as the military forces do.
    Senator Schatz. At the same pace?
    Ambassador Khalilzad. Because their numbers are larger, 
yes, in terms of the contractors, but they will be out as the 
security forces are out, those who provide services for the 
security forces, the 2,500 or so that remain.
    Senator Schatz. Okay. I am going to also submit that for 
the record so that we can get some precision on the numbers and 
over what----
    Ambassador Khalilzad. Sure. If you have more specific 
questions, we will get back to you, Senator, yes.
    Senator Schatz. Sure. I want to talk to you about divesting 
equipment. We have got a number of agencies--DoD, USAID, DOJ, 
DHS, Treasury, UNICEF, WHO, the World Food Program--and a lot 
of them have stuff that they are going to be leaving behind, 
and I understand that we plan to sell a lot of the equipment. 
But we have got a lot of good NGO partners on the ground, and I 
am wondering whether there is any plan to give these NGOs 
access to any non-combat equipment so that they can use it to 
support our work in delivering education, development, and aid 
for the Afghan people.
    Ambassador Khalilzad. I will take that question for the 
record to respond since it involves various agencies, if you do 
not mind, Senator.
    Senator Schatz. Absolutely. Final question. Can you talk to 
me about what the--how we are working with U.N., and our 
European partners, and our--and neighbors in the region to 
prepare for a possible refugee problem or refugee crisis?
    Ambassador Khalilzad. Well, we are working ourselves to 
develop humanitarian plans for a possible increase in the 
number of Afghan refugees, and we are also working interagency 
here and with partners. We can--I can take that question for 
the record, too. We are in the process. We do not have 
finalized plan, but we will make sure to provide an update as 
to where we are.
    Senator Schatz. Thank you. And we will need to know what 
the resource requirements are----
    Ambassador Khalilzad. Right.
    Senator Schatz. --for this and other things.
    Ambassador Khalilzad. I understand.
    Senator Schatz. Thank you.
    [EDITOR'S NOTE.--The information referred to above can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]
    The Chairman. Well, thank you. I understand there are no 
other colleagues seeking recognition, so I have some final 
questions. Ambassador, you referred to the reduction at the 
embassy in Kabul as ``right sizing''. ``Right sizing'' suggests 
that that's a change. Since we are changing our mission, we are 
bringing it down to a different size. My understanding is that 
the reduction at the embassy is because of increased violence 
in Kabul. Is that correct?
    Ambassador Khalilzad. Well, I have been a chief of mission 
myself in Iraq and Afghanistan, and ambassador, depending on 
its needs and the overall circumstances and if the country 
requests adjustment. And I believe that our charge d'affaires 
made a request, taking all these factors into account, but it 
is a small number in terms of reduction that he has requested.
    The Chairman. Taking all these things into account, 
including increased violence in Kabul?
    Ambassador Khalilzad. I suspect that he has included all 
factors, and that must have been one of them.
    The Chairman. I would be interested to find out exactly why 
we are at this particular time, reducing mission because we 
haven't quite reduced troops yet, so I`m not quite sure. It is 
compelling to understand why so that, therefore, we can also 
deduce other elements from that. Let me ask you, how many 
Afghan security forces are there today?
    Ambassador Khalilzad. We believe--as I said in my 
testimony, I think it is about 300,000.
    The Chairman. And we've trained over time over 600,000, 
right?
    Ambassador Khalilzad. Probably, because, you know, people--
it is a voluntary force. Some leave, so I do not know for sure 
that the number is 600,000, but substantially more than the 
300,000, yes.
    The Chairman. I agree. Now, how many Taliban fighters do we 
estimate exist?
    Ambassador Khalilzad. Well, that estimate has changed over 
time. I do know, but inadvertently, I do not want to say the 
number that I have gotten, that I can disclose in another 
setting, but it is less than 100,000. Let us put it that way.
    The Chairman. Yeah. I mean, I think there are published 
reports that suggest there are around 80,000.
    Ambassador Khalilzad. I have seen those numbers.
    The Chairman. So let us say that those are the numbers. So 
we have 300,000 Afghan security forces up against 80,000 
Taliban forces, with most of those security forces largely 
within the Kabul area and in some provincial capitals. So one 
has to wonder, for lessons for the future, what is it that we 
have done that 300,000 versus 80,000, which almost a 4-to-1 
ratio, still leaves us at risk that the Taliban can overrun the 
country. It is a serious question as we not only look at 
Afghanistan, but also as we think about our engagement any 
place in the world in the future. You know, if we--for example, 
the question was raised about their air force abilities, which 
are rather hindered because we have not really held them--
helped them to fly, so to speak, fully on their own. So that 
means every time we roll out of a place, if we cannot have a 
standing army of that nation be able to sustain its own future 
and security, then I am not sure what we accomplished after so 
many lives and national treasure.
    Ambassador Khalilzad. I think, Senator, you raise an 
important question, and that is why I myself, personally, I am 
not as pessimistic as some others are. But I think the broader 
question that you raise is a legitimate one as to what lessons 
learned are there. From the way that this--the Afghan forces 
were created, were trained and equipped and maintained, those--
there are, I think, important lessons to be learned.
    The Chairman. I hope that your optimism is rewarded, and 
that at a future hearing, we will be looking at that, that the 
Afghan security forces were able to sustain the nation and, 
therefore, create a chance for a pathway towards a diplomatic 
solution. I fear that at some point in the future we may be 
having a hearing that that isn't the ultimate reality, and then 
we'll have some real serious decisions to make from that. 
Finally, who is leading contingency planning within the United 
States Government, particularly at the State Department, I 
would say, but within the United States Government, in the 
event that Afghanistan implodes into a civil war, the Taliban 
takes over, and there is a humanitarian crisis? I think it is 
fair to say that being prepared for any of those eventualities, 
while we hope none of them ultimately comes to pass, but it 
would be a smart thing to do.
    Ambassador Khalilzad. Yeah. Well, I think it will be both 
smart and prudent. Of course, the National Security Council 
leads the interagency process, and we will take your message 
back that there needs to be a lead person is your concern, or 
lead institution for future contingency planning for 
Afghanistan.
    The Chairman. I appreciate that the NSC often plays that 
role. I am not sure that they are in this particular case. I am 
not particularly sure that anyone at this moment is. My point 
is that we should start that process of creating those 
abilities to know the contingencies so not--so that we are able 
to respond in real time versus scratching our head and thinking 
about what do we do now.
    Ambassador Khalilzad. And hopefully to preclude them to the 
maximum extent possible.
    The Chairman. I agree. Well, with the thanks of the 
committee for your long service and your particular knowledge 
here, the hearing will--the record will remain open until the 
close of business tomorrow.
    Again, with the thanks of the committee, this hearing is 
adjourned.
    Ambassador Khalilzad. Thank you.
    [Whereupon at 4:34 p.m. the committee was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of Ambassador Zalmay Khalilzad to Questions 
                    Submitted by Senator Ben Cardin

    Question. The humanitarian demining sector in Afghanistan has 
succeeded in employing thousands of Afghans in remote and contested 
regions to clear IED's and landmines which threaten civilians, while 
operating with the consent of both the Government and the Taliban. 
Given the Administration's commitment to increase foreign assistance 
for Afghanistan as U.S. troops depart, and the need to build confidence 
and stability in contested areas, do you foresee a role for expanding 
U.S. investment in the mine clearance sector?

    Answer. The continued support of the Mine Action Program for 
Afghanistan (ensuring critical programming for clearing landmines, 
unexploded ordnance, and other explosive remnants of war throughout the 
country remains operational) is necessary and will be provided as 
security conditions allow. The Department of State will coordinate with 
Congress on future mine action needs, support, and opportunities.
                                 ______
                                 

         Responses of Ambassador Zalmay Khalilzad to Questions 
                   Submitted by Senator Brian Schatz

                          personnel accounting
    Question. How many U.S. nationals are currently in Afghanistan? 
Please provide a total personnel inventory indicating the U.S. 
Government agency and/or intergovernmental organization they are 
affiliated with and their status as a government employee or 
contractor.

    Answer. As of May 5, 2021, there were 1,275 U.S. nationals physical 
present in Kabul under Chief of Mission Authority in support of Mission 
Afghanistan, consisting of:

  <bullet> Department of State: 283 U.S. direct hires and 920 third-
        party contractors

  <bullet> U.S. Agency for International Development: 33 U.S. direct 
        hires and zero third-party contractors

  <bullet> Department of Defense: 18 U.S. direct hires and zero third-
        party contractors

  <bullet> Department of Justice: 11 U.S. direct hires and four third-
        party contractors

  <bullet> Department of the Treasury: zero U.S. direct hires and zero 
        third-party contractors

  <bullet> SIGAR: 6 U.S. direct hires and zero third-party contractors

    In addition, according to the Department of State's recent 
estimates, there are approximately 16,184 private U.S. citizens in 
Afghanistan.

    Question. Of the U.S. nationals currently in Afghanistan, how many 
can we expect to stay beyond the September 11, 2021, drawdown date to 
support our enduring defense, diplomacy, and development missions? 
Please provide your best estimate of the projected U.S. nationals that 
will remain to support the Afghan people, indicated by: (1) their 
function; (2) the U.S. Government agency or intergovernmental 
organization with which they are expected to be affiliated; and (3) 
their status as either a government employee or contractor.

    Answer. In light of increasing violence and threat reports in 
Kabul, the Department has approved Ordered Departure status affecting a 
relatively small number of employees at the U.S. Embassy in Kabul April 
27. The exact number of staff remaining in-country will depend in large 
part on the security situation on the ground, which continues to 
evolve.
    All the agencies and diplomatic functions presently at our Embassy 
will remain, consistent with the Administration's commitment to stay 
fully engaged on behalf of U.S. interests in Afghanistan and our 
commitment to the Afghan people.
    The U.S. Embassy in Kabul is closely monitoring the security 
situation on the ground and will recommend additional staffing 
adjustments as conditions warrant.
                          divesting equipment
    Question. How, if at all, are we coordinating across the U.S. 
Government and with our Coalition partners to divest non-combat 
equipment directly to NGOs, including local Afghan organizations, so 
that they can use this equipment to support their work to meet the 
needs of the Afghan people as it relates to economic development, 
humanitarian assistance, and governance?

    Answer. Embassy Kabul is not currently divesting equipment and has 
not focused donations on NGOs. However, if a further drawdown occurs, 
it will begin donations, some of which could go to NGOs. For example, 
INL may divest equipment as it did during the summer of 2019 drawdown 
when INL consolidated onto the Kabul Embassy Compound from the 
International Zone. Embassy Kabul would coordinate among the agencies 
at Post.

    Question. Who is the point person in the U.S. Government 
responsible for coordinating our refugee response plan for Afghanistan?

    Answer. The Bureau of Population, Refugees, and Migration (PRM) is 
the State Department's lead on humanitarian policy and protection of 
refugees, asylum seekers, conflict victims, stateless persons, and 
vulnerable migrants. In coordination with Embassies, the interagency, 
and other State Department offices, PRM provides assistance to meet 
humanitarian needs according to international standards and supports 
durable solutions for refugees, including voluntary return and 
reintegration, local integration, and resettlement in the United States 
or another third country.

    Question. How are we working with U.N. agencies, our European 
partners, and Afghanistan's neighbors to assess their capacity to 
support regional refugees and meet their needs to ensure that they can 
safely host Afghan refugees who may be too afraid to stay behind or 
that may be displaced as result of escalating violence?

    Answer. The United States is coordinating with international 
organizations, including the Office of the U.N. High Commissioner for 
Refugees (UNHCR), Office for the Coordination of Humanitarian Affairs 
(OCHA), and International Organization for Migration (IOM) to monitor 
the humanitarian situation in Afghanistan, including potential 
increases in displacement and cross-border movements. The United States 
and our partners, including likeminded donors, are conducting 
contingency planning in the event of increased conflict or natural 
disasters that would exacerbate existing humanitarian needs in 
Afghanistan and the region.
                                 ______
                                 

 Joint Statement From the Afghan Parliament's Standing Commission for 
Human Rights, Civil Society, and Women's Affairs, and the Parliamentary 
   Caucus on Women's Role in the Peace Process, Dated April 19, 2021
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 ______
                                 

     Statement Submitted by Senator Jeanne Shaheen, Regarding: The 
 Posthumous Awarding of the State Department's International Women of 
                  Courage Award to Seven Afghan Women

    Mr. Chairman, I would like to note the following women who, on 
March 8, 2021, were award the U.S. Department of State's International 
Women of Courage award. These women were murdered for daring to live 
their lives as they chose. They were activists, reporters, security 
officers, midwives and government officials. They were also mothers, 
daughters, sisters. But at the heart of it, they were women who did not 
deserve to die, and no woman does, simply for doing what they believed 
in.
    Fatema Natasha Khalil, an official with the Afghanistan Independent 
Human Rights Commission who was killed, along with her driver, in June 
2020 by an IED in Kabul, on her way to her office.
    General Sharmila Frough, the head of the Gender Unit in the 
National Directorate of Security (NDS) was one of the longest-serving 
female NDS officers, having served as chief of the anti-kidnapping 
division and working undercover combating criminal networks. General 
Frough was assassinated in an IED explosion targeting her vehicle in 
March 2020 in Kabul.
    Maryam Noorzad, a midwife who served remote locations in Wardak and 
Bamyan provinces before working for Medecins Sans Frontieres Kabul PD13 
hospital. On May 12, 2020, three gunmen attacked the maternity ward of 
the hospital, but Maryam refused to leave her patient, who was in 
labor. Maryam, her patient, and the newborn baby were killed in the 
delivery suite.
    Fatima Rajabi, a 23-year-old police officer originally from Ghazni 
province and a member of the anti-narcotics division. She was traveling 
to her home village in Jaghori district in a civilian minibus in July 
2020 when the Taliban stopped the vehicle and took her captive. Two 
weeks later, the Taliban killed her and sent her remains, which had 
gunshot wounds and signs of torture, to her family.
    Freshta, daughter of Amir Mohamed, a 35-year-old prison guard with 
the Office of Prison Administration. She was walking from her residence 
in Kandahar City to a taxi on her way to work when she was murdered by 
an unknown gunman on October 25, 2020.
    Malalai Maiwand, a reporter at Enikas Radio and TV, was shot and 
killed, along with her driver, by a gunman on December 10, 2020, in an 
attack on her vehicle in Jalalabad. Malalai was not the first in her 
family to be targeted. Five years earlier, her mother, an activist, was 
also killed by unknown gunmen.
    Freshta Kohistani, a 29-year-old women's rights and democracy 
activist, was assassinated by unknown gunmen near her home in Kapsia 
province on December 24, 2020. Kohistani regularly organized events 
advocating for women's rights in Afghanistan and used social media as a 
platform for her messaging.
                                 ______
                                 

National Intelligence Council Report on Afghanistan: Women's Economic, 
 Political, Social Status Driven by Cultural Norms, dated April 2, 2021
 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>
</pre></body></html>
